OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/IRAQ’S
COMMUNITY STABILIZATION
PROGRAM
AUDIT REPORT NO. E-267-08-001-P
March 18, 2008




BAGHDAD, IRAQ

Office of Inspector General


March 18, 2008

MEMORANDUM

TO:       	         Acting USAID/Iraq Mission Director, Denise A. Herbol

FROM: 	             Regional Inspector General/Baghdad, Jay R. Rollins /s/

SUBJECT:	           Audit of USAID/Iraq’s Community Stabilization Program
                    (Report No. E-267-08-001-P)

This memorandum transmits our final report on the subject audit. The report includes fourteen
recommendations, two of which address potential monetary efficiencies or recoveries. We have
considered management’s comments on the draft report and have incorporated them into the
final report, as appropriate. They have been included in their entirety in appendix II.

Based on management’s comments, we consider that a management decision has been
reached on Recommendations 4, 5, 6, 8, 12, and 13. In addition, we consider that final action
has been taken on Recommendations 5, 6, and 13. Please provide evidence of final action on
Recommendations 4, 8, and 12 to the Audit Performance and Compliance Division upon
completion.

Also based on management’s comments, we consider that no management decision has been
reached on Recommendations 1, 2, 3, 7, 9, 10, 11, and 14. Recommendation 1 includes a
recommended reprogramming of $8,541,076 due to the suspension of projects in one district of
Baghdad. USAID/Iraq did not concur with the dollar amount in that recommendation.
Recommendation 9 includes $39,821 in questioned costs for which USAID/Iraq has not yet
determined allowability. We request that you provide us with written notice within 30 days
regarding any additional information related to actions planned or taken to implement the
recommendations that remain without a management decision.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




Regional Inspector General Baghdad
Hammurabi Bldg
USAID Compound
International Zone
Baghdad, Iraq
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objectives ................................................................................................................ 4


Audit Findings ................................................................................................................. 6 


Is USAID/Iraq’s Community Stabilization Program 

achieving its intended result with regard to activities in the 

community infrastructure and essential services 

component? ...................................................................................................................... 6


     Program is Highly Vulnerable to Fraud 

     and Exploitation .......................................................................................................... 6 


     Allegations of Fraud Were Not Promptly 

     Reported to Office of Inspector General .................................................................. 11 


     Documentation of Employment 

     Generated by CSP Projects is 

     Inadequate ............................................................................................................... 12 


     Usefulness and Accuracy of Local 

     Government Effectiveness 

     Surveys Should Be Improved ................................................................................... 15 


     External Monitoring Reports Could Be 

     Better Utilized ........................................................................................................... 17 


     Performance Indicators Should 

     More Closely Link Outputs to Results ....................................................................... 18 


How has USAID/Iraq designed and implemented its 

Community Stabilization Program to help ensure that Iraqis 

continue to benefit from its activities after USAID 

involvement has ended? ................................................................................................. 20 


Other Matters................................................................................................................. 23 


     Branding Policy Should Be Consistently 

     Followed ................................................................................................................... 23 

Evaluation of Management Comments ....................................................................... 26 


Appendix I – Scope and Methodology ........................................................................ 33 


Appendix II – Management Comments ....................................................................... 36 


Appendix III – Survey Results...................................................................................... 47 


Appendix IV – Employment Results ........................................................................... 48 

SUMMARY OF RESULTS

The Regional Inspector General in Baghdad conducted this audit to determine: 1) if
USAID/Iraq’s Community Stabilization Program is achieving its intended result with
regard to activities in its community infrastructure and essential services component; and
2) how USAID/Iraq has designed and implemented the program to help ensure that
Iraqis will continue to benefit from its activities after USAID involvement has ended.
Started in May 2006, this $544 million program was designed to complement military
security initiatives through stabilization efforts in selected Iraqi cities. These efforts
include short-term projects intended to provide employment opportunities to Iraqis who
might otherwise become susceptible to insurgent appeals. By working with local Iraqi
authorities to provide needed public services and jobs, the Community Stabilization
Program hopes to increase the confidence of Iraqis in their government, and decrease
support for the insurgency.

The audit was unable to determine if the Community Stabilization Program was
achieving its intended result--to help defeat the insurgency by reducing the incentives for
participating in it--because we could not rely on one of the major measurements of the
program (employment generation).           Even though citizens’ perceptions of local
government effectiveness seemed to have improved, short-term employment generated
by the program was inadequately substantiated (see pages 6 and 12-15). Employment
generation through public works projects has been the predominant focus of the
Community Stabilization Program to date and is a key program element designed to
reduce incentives for participating in the insurgency. Furthermore, the audit found
evidence of potential fraud occurring in projects within a specific district of Baghdad. By
one estimate, the amount of this fraud in that district alone could range from $6.7 to $8.4
million. Indications of similar problems were present in other districts of Baghdad, as
well as in other provinces throughout Iraq. The potential fraud included the possible
diversion of Community Stabilization Program funds to militia activities by means of
overpriced trash collection contracts and related timesheets with irregularities, as well as
possible phantom workers for the community cleanup campaigns funded by the program
(see pages 6 -10).

In addition, the audit found that allegations of fraud were not promptly reported to the
Office of Inspector General (see pages 11-12), citizen satisfaction survey results were
incorrectly tabulated (see pages 15-17), external monitoring reports could be better
utilized (see pages 17-18), performance indicators should more closely link outputs to
results (see pages 18-20), and the branding policy for the Community Stabilization
Program should be more consistently followed (see pages 23-25).

Major recommendations included: the immediate suspension of Community Stabilization
Program projects within the specific Baghdad district, with $8.5 million in funds put to
better use; a review of projects in other areas for similar evidence of fraud; coordinating
with other program participants and exploring the feasibility of vetting potential
contractors through U.S. military intelligence databases (see page 10); establishing
procedures to help ensure prompt reporting of potential fraud to the Office of Inspector
General (see page 12); and improving the quality of employment generation data
reported by the implementing partner and recovering ineligible questioned costs of
$39,821 (see page 14). Other recommendations made in the audit report included:


                                                                                          1
improving the usefulness and accuracy of local government effectiveness surveys (see
page 17); tracking recommendations made in external monitoring reports (see page 18);
linking outputs to results (see page 20); and consistently following the branding policy
(see page 25).

In response to our draft report, USAID/Iraq accepted the need to improve documentation
and acknowledged the high degree of risk associated with a program like CSP in a war
zone. However, USAID/Iraq indicated that, despite these challenges, the bulk of
evidence was that CSP has been very successful. In its comments, USAID/Iraq
indicated that it agreed with seven of the fourteen recommendations. Based on those
comments, we consider management decisions to have been reached on six
recommendations. Of those six recommendations, we consider that final action has
been taken on three. We requested that USAID/Iraq provide us with written notice within
30 days regarding any additional information related to actions planned or taken to
implement the eight recommendations that remain without a management decision

Management comments have been included in their entirety in appendix II.




                                                                                      2
BACKGROUND

In November 2005, President George W. Bush announced a new strategy designed to
achieve a stable, prosperous and democratic Iraq by focusing on increased security in
conjunction with economic and political development. USAID’s intended contribution to this
strategy centered on stabilizing strategic cities, improving local services and local
government capacity, and continuing to support Iraqi communities. With a U.S. presidential
announcement in January 2007 to double the number of Provincial Reconstruction Teams
(PRTs), USAID’s contribution to stabilizing strategic cities received added impetus.

A major element in USAID’s plan to achieve these ambitious tasks is the Community
Stabilization Program (CSP), which is overseen by USAID/Iraq’s Focused Stabilization
Program Office. Launched in May 2006, CSP is a 3-year, $544 million program
implemented by a U.S. based nonprofit organization that receives funding through a
cooperative agreement with Baghdad. The program is intended to complement military
security efforts, and civilian local government development, with economic and social
stabilization efforts. These efforts to rapidly stabilize strategic cities are comprised, in part,
of short- and medium-term public works projects which provide employment for those
groups in Iraqi society most susceptible to insurgent appeals. These projects include
activities such as community cleanup campaigns and trash collection, rehabilitating roads
and schools, and larger scale engineering projects to improve water and sewage services.
In addition, these public works projects also provide the opportunity for local communities to
participate in decision-making through identifying needed projects and collaborating with
other levels of government. By providing needed public services and jobs, CSP hopes to
strengthen confidence in local government, and in turn help reduce the incentives for
participation in violent conflict.

CSP, however, encompasses more than just public works activities. Vocational training
and apprenticeships seek to provide the skills for stable, long-term employment, while
business skills development and financial assistance for small and medium-sized
enterprises aim to foster opportunities for entrepreneurs. These efforts are complemented
by youth activities that promote unity and religious tolerance such as poetry festivals and
organized sports leagues. The various elements of CSP provide a mechanism for rapidly
stabilizing key cities, and a foundation for longer-term, more sustainable development
activities. Stabilization efforts like CSP are an integral part of counterinsurgency operations
which, at their core, are an effort to foster development of an effective government that is
accepted by the populace. Several of the most vital attributes include providing security
for the population and promoting acceptable levels of economic development. Operating
in a counterinsurgency environment, however, poses numerous challenges. Most
significantly, USAID/Iraq faces challenges of not only implementing extensive activities
in an unstable and insecure environment, but also monitoring and managing these
activities for results.

This audit focused on whether CSP was achieving its intended result in helping to defeat
the insurgency by reducing the incentives for participating in it. To this end, the audit
team devised a methodology (detailed in appendix I) for assessing whether that result
was being achieved. As part of this process, we also reviewed selected performance
indicators and the methodologies used by USAID/Iraq to help monitor program
performance. Since numerous variables affect progress against the insurgency, the


                                                                                                3
audit also reviewed the reported employment generated by CSP public works and
infrastructure activities (referred to as the community infrastructure and essential
services component), in order to provide a reasonable basis for assessing whether CSP
activities were contributing towards the intended result.

Finally, the audit also describes how certain features of CSP enhance sustainability and
discusses some of the specific challenges to helping ensure that the impact of CSP
endures.


AUDIT OBJECTIVES
As part of its fiscal year 2007 annual audit plan, the Regional Inspector General in Baghdad
conducted this audit to answer the following questions:

     •	 Is USAID/Iraq’s Community Stabilization Program achieving its intended result
        with regard to activities in the community infrastructure and essential services
        component?

     •	 How has USAID/Iraq designed and implemented its Community Stabilization
        Program to help ensure that Iraqis continue to benefit from its activities after
        USAID involvement has ended?

As noted above, appendix I contains a description of the audit’s scope and methodology.




                                                                                          4
Photo of a Baghdad market following a car bomb attack. Source: USAID/Iraq.




Photo of the same market after CSP funded a cleaning project and provided
business development grants to vendors. Source: USAID/Iraq.




                                                                             5
AUDIT FINDINGS

Is USAID/Iraq’s Community Stabilization Program achieving its
intended result with regard to activities in the community
infrastructure and essential services component?
We were unable to determine whether USAID/Iraq’s Community Stabilization Program
(CSP) was achieving its intended result with regard to activities in the community
infrastructure and essential services component. The program’s overarching intended
result was to help defeat the insurgency by reducing the incentives for participating in it.
A key indicator of the program’s progress in this regard--citizens’ perception of local
government effectiveness--seems to have exhibited an overall positive trend since the
beginning of the program. However, results reported for a major measurement of the
program--employment generated through CSP--were inadequately substantiated. Even
though employment targets were claimed to have been exceeded, the lack of adequate
substantiation diminishes the credibility of these claims. Employment generation
through public works projects has been the predominant focus of CSP to date, and is a
key program element designed to reduce incentives for participating in violent conflict.
Consequently, we do not have a reasonable basis for asserting that CSP activities in the
community infrastructure and essential services component were contributing to the
overall improvements in security in Iraq that have occurred since the troop surge
became fully operational in mid-2007.

Moreover, our audit found evidence of fraud occurring within certain CSP projects.
According to a U.S. military official, this fraud could have adverse consequences for U.S.
military personnel by providing funds for insurgent activities. Although this evidence was
focused principally on specific districts in Baghdad, we note that in recent months
RIG/Baghdad investigators have received a substantial number of allegations of fraud
relating to CSP activities in other parts of Baghdad, as well as other cities in Iraq. Apart
from this, our audit did find some evidence that CSP activities were successfully taking
place as demonstrated in reports from USAID Provincial Reconstruction Team
representatives and an independent monitoring contractor hired by USAID/Iraq.
Moreover, readers should keep in context the strong emphasis placed on rapid job
creation in the initial stages of the Community Stabilization Program. Notwithstanding
these facts, in our judgment the seriousness of the deficiencies discussed below casts
enough doubt over the integrity of the entire program to prohibit us from rendering a
positive answer to the audit objective.

Program is Highly Vulnerable to
Fraud and Exploitation

  Summary: Our audit found evidence of potential fraud in CSP projects, resulting in
  the suspension of projects in one district of Baghdad. The lack of regular,
  independent site monitoring and the inadequate vetting of CSP contractors were
  major factors contributing to the program’s vulnerability to fraud. Estimates of
  potential fraud in the district in which projects were suspended ranged from $6.7 to
  $8.4 million. Evidence suggests that similar problems may exist elsewhere in Iraq.


                                                                                          6
In a letter dated September 1, 2007, a USAID Provincial Reconstruction Team (PRT)
representative embedded with the U.S. military informed USAID/Iraq’s Focused
Stabilization Program Office (FSPO) that there were “compelling indications” that funds
from CSP projects in his area were “being extorted by at least one known militia leader,”
with adverse consequences for U.S. military personnel. This letter was sent at the
direction of both the commanding officer of the responsible Brigade Combat Team and
the PRT leader. Moreover, this letter referred to earlier correspondence in late July
2007 regarding similar issues. In an e-mail notifying senior mission officials of the
September 1, 2007 letter, the FSPO director noted that he had discussed the July
allegations with a senior military official, and reported to mission officials that, while the
military had “concerns” regarding the diversion of CSP funds to militia activities, “the
level of proof is not such that action can be taken.” It is important to note that USAID
officials do not conduct onsite monitoring of CSP activities due to a desire to avoid
associating those activities or personnel with the U.S. Government, and for security
reasons.1

Given the gravity of this information, we expanded our audit procedures and traveled to
the Forward Operating Base from which the allegations were made. At the base, we
conducted interviews with a number of knowledgeable civilian and military officials
regarding these allegations.2 These officials included the Brigade Combat Team
commanding officer, the PRT leader, and a USAID representative, as well as officers
from military intelligence and engineering units. These officials provided detailed
evidence concerning the extortion of funds from CSP projects and their possible
diversion to militia activities.

Some of this evidence included intelligence reports developed through what the Brigade
Combat Team commanding officer described as “reliable Shia source reports” in an
unclassified letter to a superior officer requesting the cancellation of certain CSP projects
in order to cut off a suspected militia funding source. We requested from CSP officials
the timesheets for one of the cleaning campaign projects for which cancellation was
specifically requested.3 A review of the timesheets for this project indicated an
excessive number of irregularities, including signatures and attendance marks on rows
for which no employees were named and timesheets that were not dated and contained
no evidence of attendance.

U.S. military officials at the Forward Operating Base noted other indications of potential
fraud in CSP projects. For example, the brigade’s engineering battalion identified one
cleaning project that had an original contract for three months costing $470,000.
According to a battalion staff member, that same contract was later extended for a two-
week period at an additional cost of $240,000, or 51 percent of the cost of the original
three-month contract. The staff member also provided documents that compared the

1
   Although USAID has hired an independent contractor to provide monitoring and evaluation 

services for USAID/Iraq’s entire portfolio, including CSP, for security reasons the contractor

cannot make surprise visits to CSP work sites.

2
  In addition to these interviews, OIG requested that the Defense Contract Audit Agency (DCAA)

conduct an audit of costs incurred and billed by the CSP implementing partner to USAID. The 

DCAA audit was not completed at the time this report was issued.

3
  The term “CSP official”, as used throughout this report, refers only to employees or agents of 

the CSP implementing partner. 



                                                                                              7
cost of a CSP cleaning contract to a similar contract in the same area funded by the
brigade under the U.S. military Commander’s Emergency Response Program (CERP).
The latter contract was for only $156,000 whereas the CSP contract was valued at
$846,795--more than five times higher.

Towards the end of audit fieldwork, we received a copy of a letter addressed to the
USAID/Iraq mission director dated November 27, 2007 from the same USAID PRT
representative who authored the September 1, 2007 letter. The second letter provided
new “sensitive and disturbing information from a well-placed source concerning the
integrity of the [CSP] trash campaigns” in a certain Baghdad district. According to this
source, “millions of dollars” from these projects were fraudulently going to insurgents, as
well as to corrupt community leaders and CSP representatives. This source also
indicated that as much as 40 to 50 percent of the value of the trash campaigns had been
going toward such payoffs.

Mission records indicate that, as of November 17, 2007, over $16.7 million in CSP funds
had been disbursed for 59 projects in this district, the majority of which consisted of
cleaning campaigns. According to mission records, $8.5 million in CSP funds remained
under contracts that were completed, ongoing, or unstarted. If the source’s estimates
are correct - that 40 to 50 percent of payments for such projects were used for improper
pay-offs - USAID may have already been defrauded of $6.7 to $8.4 million, with another
$3.4 to $4.3 million at risk absent any corrective action.4

This particular district may not be the only one with such issues. In a neighboring
Baghdad district with similar allegations, as of November 17, 2007, $6.1 million in CSP
funds had been disbursed for 49 projects, the majority of which consisted of cleaning
campaigns. An estimated $6.3 million remains to be disbursed under projects that are
either underway or tendered in that district. Using the same estimate (40 to 50 percent)
of improper payments in this district, USAID may already have been defrauded of $2.4 to
$3.0 million, with another $2.5 to $3.1 million at risk. In addition, we note that in recent
months RIG/Baghdad investigators have received a substantial number of allegations of
fraud relating to CSP activities in other parts of Baghdad, as well as other cities in Iraq.

Coordination Between USAID and PRT/ Brigade Combat Team - Another theme that
emerged during interviews with PRT and Brigade Combat Team officials was the lack of
coordination between USAID and the PRT/Brigade Combat Team. For example,
according to one Brigade Combat Team officer, when he attempted to obtain the scope
of work for a specific CSP project in order to investigate the cost disparity between it and
a Commander’s Emergency Response Program (CERP) project, he was told by a
USAID official that he had “no need to know.” In a later meeting with the USAID PRT
representative, this same official stated that the Brigade Combat Team had to go
through either the U.S. embassy in Baghdad or Multinational Division–Baghdad
headquarters to obtain specific information on CSP grants and projects.

An effect of inadequate coordination between USAID and the PRT/Brigade Combat
Team involved the arrest of CSP workers by the U.S. military. This problem occurred on
more than one occasion because the U.S. military noticed significant numbers of

4
  Even though the source only mentioned cleaning campaigns, the mission ultimately decided to
suspend all CSP projects in this district, except for student stipends. These stipends are not
included in the above figures.


                                                                                            8
congregated Iraqis and was unaware that they were employed on a USAID project. A
senior CSP official confirmed that there had been arrests of CSP workers in certain
Baghdad districts. This official noted, however, that no major incidents have occurred in
the past six months due to “significant progress in security.”

In another matter, USAID provided conflicting guidance regarding the scope of the
USAID PRT representative’s duties regarding CSP. According to the USAID PRT
representative,5 a USAID official informed him that the Focused Stabilization Program
Office was “in charge” of CSP, and that he was not to contact the implementing partner
directly or otherwise act as activity manager. A USAID official confirmed this
arrangement, which he indicated was to keep PRT representatives from overwhelming
the implementing partner with information requests, as well as endangering CSP staff by
creating an association with the U.S. Government or military. In addition, this official
noted that designating PRT representatives as “activity managers”--a term which has a
precise, technical meaning in Agency usage--had been a “debate” since the
commencement of CSP.

Nonetheless, after the USAID PRT representative communicated concerns to FSPO
regarding “phantom workers” and “overpriced contracts,” that office responded via e-mail
that it was the responsibility of the PRT representative, “as the USAID activity manager,”
to address these types of issues. We asked an FSPO official to explain these conflicting
instructions.    According to this official, the rationale was for the USAID PRT
representative to investigate the allegations, make a recommendation, and then USAID
could approach the implementing partner.

Finally, the September 1, 2007, letter requested that FSPO provide the Brigade Combat
Team with “specific information” on “who is being funded and how much” on CSP
projects within its area of operation. An FSPO official stated that weekly data had been
provided detailing the locations, dollar amount of contracts, project types, number of
workers, start and end dates, and notes on project status. The USAID PRT
representative indicated that such information had in fact been received, but that it did
not meet all their needs. During one of our interviews, U.S. military officials noted that if
they knew the identity of potential CSP contractors, then these individuals could easily
be vetted through a U.S. military intelligence system. However, in a May 2007 e-mail to
the USAID PRT representative addressing his concerns regarding the proposed hire of a
contractor who was affiliated with a militia, an FSPO official stated that “CSP had
checked their database and could not find any reference to the name given.” He further
stated that CSP “…is not responsible for determining whether a contractor is hiring
undesirable workers,” with such responsibility resting with the local Iraqi governing
authorities that identified and approved the contractors.

In our opinion, the evidence obtained (and provided to the OIG Office of Investigations
for further review) indicates that CSP projects are highly vulnerable to fraud and
exploitation which may have in fact occurred, with potential adverse consequences to
Coalition personnel. Significant causes include the lack of any unannounced onsite
monitoring by officials unaffiliated with either the CSP implementing partner or the local
Iraqi government, and the inadequate means of vetting potential CSP contractors.6

5
 Another USAID PRT representative gave a similar account. 

6
 A recent OIG audit report on the adequacy of USAID’s antiterrorism vetting procedures (Audit 

Report No. 9-000-08-001-P, issued November 6, 2007) also dealt with this issue. 



                                                                                            9
It is important to note, however, that allegations as detailed as these only arose from one
area in Baghdad, while CSP operates throughout most of Baghdad and in selected other
areas. Furthermore, the CSP implementing partner has indicated that they have either
adopted, or plan to adopt, a number of procedures to strengthen internal controls.
These include the formation of an internal quality control unit dedicated to reviewing
employment documentation and confirming that the correct number of workers is in the
field, as well as an “anti-corruption” unit. Notwithstanding these actions, we have made
the following recommendations:

   Recommendation 1: We recommend that USAID/Iraq immediately suspend
   ongoing Community Stabilization Program projects in the particular district
   discussed in this report in order to eliminate any additional exposure to fraud and
   reprogram the unpaid balance. As of November 17, 2007, the unpaid balance for
   these projects totaled $8,541,076.

After receipt of the November 27th letter, this recommendation was initially made to the
USAID/Iraq mission director on November 29, 2007. The mission director concurred
and responded that a decision had already been made to suspend CSP activities for the
district in question. According to FSPO officials, verbal instructions were also issued to
the CSP implementing partner to hold all payments on projects in this district until further
notice. On December 2, 2007, the mission instructed the CSP implementing partner to
suspend not only cleaning campaigns, but also all other CSP activities in this particular
district except for student stipends.

   Recommendation 2: We recommend that USAID/Iraq review Community
   Stabilization Program projects in other Baghdad districts and communities in
   which the program operates to determine whether they should be suspended for
   the reasons cited in Recommendation No. 1.

   Recommendation 3: We recommend that USAID/Iraq meet with appropriate
   officials from the Community Stabilization Program, Provincial Reconstruction
   Teams, and the United States military to improve coordination and discuss the
   feasibility of vetting potential Community Stabilization Program contractors
   through military intelligence databases.

   Recommendation 4: We recommend that USAID/Iraq take steps to increase its
   monitoring of Community Stabilization Program projects, with special emphasis
   on preventing and detecting fraud by obtaining reasonable assurance that the
   number of workers paid corresponds to the number that actually worked.




                                                                                         10
Allegations of Fraud Were Not
Promptly Reported to Office of
Inspector General

     Summary: USAID policy requires employees to promptly report allegations of fraud
     and other violations of law to the Office of Inspector General. However, significant
     fraud allegations were not reported in a timely manner because they were either
     not discussed by the Focused Stabilization Program Office, not believed to be
     useful, or were left to the discretion of the office director. The Office of Inspector
     General is impeded in its ability to prevent and detect fraud and abuse if USAID
     employees do not report such information in a timely manner to the appropriate
     personnel.

According to USAID Handbook 24, Chapter 2 “Employee Responsibilities, Conduct and
Political Activity,”

      Employees must promptly report any information, allegation or complaint relating
      to waste, fraud, abuse, corruption or any violation of law, regulation or rule
      involving Agency programs, operations, employees or monies to the Office of
      Inspector General, Office of Investigations (IG/I).

To facilitate compliance, employees may contact IG/I personnel directly without first
notifying their immediate supervisor. This Agency policy internalizes for USAID
personnel a number of other applicable legal authorities requiring employees to report
fraud and abuse, such as the Code of Federal Regulations’s (CFR’s) Standards of
Ethical Conduct for Employees of the Executive Branch and the Foreign Affairs Manual.7

Despite these requirements to promptly report any fraud allegations, prior to the start of
this audit USAID/Iraq was aware of instances of suspected fraud and corruption which it
did not relay to OIG personnel. We only became aware of these issues as a result of
routine audit inquiries. When asked why these instances were not forwarded to OIG
personnel in a timely manner, one official stated that they had never talked about doing
so. He then added his opinion that the “vast majority of allegations were ambiguous to
the point of not being useful.” This same official further stated that he did not forward
such information to OIG because the office chief would take precedence in deciding
whether such information should be forwarded.

As noted previously, a September 1, 2007 letter from a USAID PRT representative
informed FSPO of significant allegations that funds from certain CSP projects were
being extorted by at least one militia leader.        The letter referred to previous
correspondence expressing similar concerns. On September 6, 2007, USAID’s FSPO
director then informed senior mission officials, via e-mail, of the most recent
correspondence. Despite the serious nature of these recent allegations, no mention of
this matter was raised at the entrance conference for this audit that OIG personnel held
with FSPO and other mission officials only one week later on September 13, 2007. We
did not become aware of this issue until October 17, 2007, the date that we asked FSPO


6
    5 CFR §2635.101(b)(11) and 2 FAM 031.1-5, respectively.


                                                                                              11
personnel to forward any and all correspondence alleging fraud or corruption in CSP
activities.

Fraud Allegations Reported Directly to OIG By Implementing Partner - After an OIG
presentation to a gathering of USAID/Iraq implementing partners on financial audits, the
chief of party and another official of the CSP implementing partner approached the
Regional lnspector General in Baghdad and asked how potential fraud should be
reported to OIG. A meeting with OIG investigators was immediately held to discuss
matters in further detail. Nevertheless, this indicates a lack of awareness on the part of
some USAID personnel and implementing partners regarding their responsibities for
reporting potential fraud to OIG. In this case, for example, the chief of party indicated
that the Regional Inspector General’s presentation triggered the realization that
suspected fraud should be reported to OIG. In the absence of the presentation, it is not
known whether these matters would have been ultimately brought to USAID’s attention.
Consequently, we are making the following recommendations:

   Recommendation 5: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office establish policies and procedures reminding Focused
   Stabilization Program Office employees of their responsibility to promptly report
   any allegations of fraud and abuse to the Office of Inspector General.

   Recommendation 6: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office have Office of Inspector General investigators provide a fraud
   awareness briefing to Community Stabilization Program implementing partner
   officials.


Documentation of Employment
Generated by CSP Projects is
Inadequate

  Summary: Agency legal authorities require that quality data be collected on key
  program outputs in order to effectively measure performance. However, reported
  employment information generated by CSP projects that we reviewed was
  inadequately substantiated. We noted numerous instances where timesheets were
  either unsigned or not present. CSP officials gave several reasons why timesheets
  were not present, including that timesheets were initially not required and that
  USAID and the military were pushing for job creation without definitive procedures
  for documenting such employment. In addition, the cooperative agreement did not
  require that timesheets be submitted to USAID. Without adequately substantiated
  employment data, confidence in reported outputs is reduced, effective program
  management is hindered, and project funds may be fraudulently diverted for other
  purposes.

As noted previously, a primary mechanism in the Community Stabilization Program’s
effort to reduce the incentives for participation in violent conflict has been to provide jobs
to young Iraqi males who might otherwise be unemployed. The amount of employment
generated, therefore, is a key CSP output. To ensure that program performance can be



                                                                                           12
effectively measured and informed managerial decisions can be made, Agency legal
authorities require that quality data be collected on such outputs.

The CSP implementing partner reported that, as of September 30, 2007, CSP generated
a cumulative total of 259,429 “person-months” of short-term employment throughout
Iraq. The target as of this date was 178,014 person-months. In Baghdad, where CSP
projects have been focused, reported person-months through September 30 were
192,744, compared to a target of 144,750. While the CSP implementing partner has
reported other indicators of employment generation, such as long-term jobs created, we
focused on the person-months of short-term employment generated since this was
oriented towards activities in the community infrastructure and essential services
component of the program.

In order to assess the validity and quality of reported employment generated, we
randomly sampled 66 of 265 CSP community infrastructure and essential services
projects in Baghdad. Our objective was two-fold. First, we sought to determine whether
the recorded employment output in the CSP database for a selected project was
adequately substantiated. Employment was considered to be adequately substantiated
if the voucher evidencing payment from the implementing partner contained completed
timesheets signed by the applicable employees. Second, we then determined if the
employment output in the CSP database that could be substantiated was consistent with
the quarterly data reported to USAID per the implementing partner’s monitoring and
evaluation plan. Results of this analysis are summarized in appendix IV.

In general, we found that a significant number of payment vouchers had missing,
incomplete, or inadequate documentation of employment. The level of unsubstantiated
employment we found in our sample diminishes the validity, credibility, and usefulness of
the quarterly employment figures, while strengthening the claims cited previously
regarding phantom workers and CSP’s vulnerability to fraud. For example, where
payment vouchers were maintained in Amman, Jordan, we reviewed 105 payment
vouchers, 40 of which had no timesheets at all, while 45 had timesheets which were not
signed by the employees. Moreover, many of the unsigned timesheets were of dubious
authenticity. For example, a number of timesheets were computer generated and
appeared to have been mass produced, with uniform check marks purporting to show
work attendance. Furthermore, these timesheets often showed no absences over
several months for hundreds of employees. In Baghdad, we found other examples of
suspect timesheets, including those which lacked signatures and those that had what
appeared to be the same signature for multiple employees.

We also found other examples of irregularities that call into question not only reported
employment outputs, but also the validity of payments made to project contractors. For
example, one cleaning contract specified that 180 workers were to be used. While
timesheets – unsigned by employees and mass produced – were submitted for only 144
workers, the payment to the contractor was based on the full complement of 180
workers. This resulted in a potential overbilling of $34,681 on 3 payment vouchers that
were reviewed. A miscalculation of laborers was made in another project, resulting in
the contractor being paid for 270 nonexistent employees. This error caused an
overpayment of $1,890. In another case, one set of timesheets for 400 workers (also
unsigned) indicated that 156 were absent on one work day; however, the payment to the
contractor was also based on the full contract amount, representing an overpayment of
$3,250. Moreover, we also observed additional timesheets that contained a fewer


                                                                                      13
number of absences; however, payments were based on the full contract amount and
showed no evidence of being adjusted for missed work days.8

We asked several CSP officials why timesheets were either missing or contained
irregularities. One official indicated that during the CSP start-up period, “no one knew
how to approach this [controls over timesheets] issue.” This same official also said that
during this time USAID and the U.S. military were “pushing” for job creation. Another
official stated that, initially, timesheets were not required, and were only instituted later
upon the recommendation of a former CSP finance official.

CSP officials described a number of steps they had instituted to improve internal controls
over reported data. These included a monitoring and evaluation unit, which performs
random spot checks and reports directly to the chief of party. In addition, there is also
an internal quality control unit which reviews the timesheets and vets the number of
workers in the field. This unit is assisted by a number of “secret supervisors” stationed
in various areas who make counts of workers. According to a CSP official, this unit was
established in July 2007 in order for him to “feel more comfortable and confident” in the
timesheet data.9 Indeed, the timesheets that we reviewed after this date were generally
of higher quality than those prior to that time. However, this relative improvement must
also be viewed in the context of the evidence cited in previous sections regarding
potential fraud within CSP activities. Notwithstanding these proactive and positive steps
taken by CSP officials, there is no still consistent, independent review of employment
data reporting. According to a USAID official, under the terms of the cooperative
agreement USAID does not ask for, nor does CSP submit, the timesheets when the CSP
implementing partner seeks remuneration from USAID.

Finally, we asked CSP officials to provide a reconciliation of the employment data
reported in the database with that reported to USAID pursuant to the monitoring and
evaluation plan, which they did not do. In addition, a recently arrived senior CSP official
remarked that he had also been trying to obtain a similar reconciliation, to no avail.
Furthermore, we also noted that a data quality assessment performed in October 2006
stated that one vulnerability was that the tracking of data by location to the implementing
partner was not clear.

In our opinion, the reported employment figures cannot be relied upon to determine
whether CSP met the associated performance targets under the monitoring and
evaluation plan. Consequently, efforts to gauge CSP’s contribution to the improving
conditions in Iraq, among the entire spectrum of military and non-military elements, are
hindered. Furthermore, without accurate data, USAID can neither make adequately
informed managerial decisions nor take timely corrective action.

    Recommendation 7: We recommend that USAID/Iraq conduct a data quality
    assessment that specifically focuses on the job creation data being reported by
    the Community Stabilization Program implementing partner and take appropriate
    action based on the results of that assessment.

8
  These findings have been communicated to the Defense Contract Audit Agency for use in their
audit of costs incurred and billed by the CSP implementing partner to USAID.
9
  An official with the mission’s independent monitoring and evaluation contractor indicated that
the CSP implementing partner had not been actively monitoring its programs until approximately
3 months prior to our interview in early October 2007.


                                                                                             14
   Recommendation 8: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office work with the Community Stabilization Program implementing
   partner to reconcile the employment data reported in its monitoring and
   evaluation database with the employment data reported in its quarterly progress
   report.

   Recommendation 9: We recommend that USAID/Iraq determine the allowability
   and collect as appropriate the $39,821 in questioned ineligible costs billed by the
   Community Stabilization Program’s implementing partner under Cooperative
   Agreement No. 267-A-00-06-00503-00, for the specific projects included in the
   finding.

Usefulness and Accuracy of
Local Government
Effectiveness Surveys Should
Be Improved

  Summary: According to USAID policy, data used by USAID should be of sufficient
  quality in order to be credible for reporting purposes. However, some of the data
  used in a key indicator for measuring Iraqi perception of local government
  effectiveness lacked both validity and reliability. We found that a survey instrument
  used to measure Iraqis’ perceptions of the effectiveness of local governments
  overstated respondents’ level of satisfaction with various public services. This
  occurred because USAID did not challenge the survey methodology during its
  review of the implementing partner’s monitoring and evaluation plan. The result is
  that the value of respondents’ level of satisfaction was overstated by an average of
  34 percent, potentially weakening the credibility of USAID’s reporting.



According to the Automated Directives System (ADS) 203.3.5.1, performance data used
to measure program results should be of sufficient quality in order to be credible for
reporting purposes. Two key attributes of high quality data discussed in the ADS are
validity and reliability. Valid data clearly and adequately represents the intended result,
while reliable data is collected and analyzed using stable and consistent methods.
However, the reported data for one performance indicator is neither valid nor reliable.

USAID used survey results as a performance indicator to measure Iraqis’ perception of
local government effectiveness. Respondents rated their satisfaction on an array of
government services on a scale of 1-5, with 1 being unsatisfied and 5 being satisfied.
Respondents also rated whether the quality of those services had improved or
deteriorated within the past 12 months. These responses were then used to compute an
overall value, which was an average of a “satisfaction level” score in providing services
and a score based on trends in service quality. Baseline surveys were conducted upon
commencement of CSP activities in a given area, with follow-up surveys taken at 6-
month intervals.




                                                                                          15
In computing the satisfaction level, scores of 3, 4 and 5 are considered to be indicative
of satisfaction. According to the implementing partner’s monitoring and evaluation plan,
the target for the followup surveys taken at the 1-year point was that 60 percent of the
respondents indicate a satisfied or higher level with the municipal services being
provided by their respective local governments and a sense that these services had
improved during the past year.

However, the overall value was not valid because a score of 3, according to both an
implementing partner official and an independent data quality assessment, should have
been considered neutral. It indicates that the respondent was neither satisfied nor
dissatisfied.

Moreover, the figure was weak in reliability because only the numbers 1 and 5 on the
scale were labeled, while categories 2-4 were not labeled. Under the terms of the
cooperative agreement, USAID is responsible for approving the implementing partner’s
monitoring and evaluation plan. According to an implementing partner official, USAID
did not challenge the methodology by which a score of 3 was considered to be
“satisfied,” even though it had an opportunity to do so.

USAID pointed out in a review of the monitoring and evaluation plan that failure to label
categories 2-4 could lead to others concluding that a score of 3 should not be
considered “satisfied.” An implementing partner official stated that USAID did in fact
recommend labeling those categories, but that this recommendation took place after the
baseline surveys had been conducted. Due to concerns about the consistency of survey
results if labels were added to some surveys but not to others, labels were not added to
categories 2-4.

The effect of the foregoing was that the satisfaction level of survey respondents was
overstated, which correspondingly overstated the overall value of the performance
indicator. In order to gauge the extent of this overstatement, we recomputed the
satisfaction levels for the follow-up surveys, using only scores of 4 or 5 to designate
satisfaction. Using these recomputed satisfaction levels, we then recomputed the
overall value for the performance indicator and found that it was overstated by an
average of 34 percent, as shown in the following table.


                Satisfaction Level of Respondents on Followup Surveys
                           (Original and Recomputed Values)

     CSP Area            Overall Value,        Overall Value,       Percentage Decline
 (by Governorate)        Original (3 or       Recomputed (4 or       From Original to
                        above=satisfied)      above=satisfied)         Recomputed
Baghdad                     46.03%                33.44%                 27.35%
Ninewa                      49.24%                32.48%                 34.04%
Al Anbar                    35.51%                24.25%                 31.71%
Al Tamim                    29.89%                17.10%                 42.81%
Average                     40.17%                26.82%                 33.98%




                                                                                      16
USAID’s performance data is used to report progress towards intended results to a
variety of internal and external stakeholders, including Congress and the public.
Accordingly, we are making the following recommendations:

   Recommendation 10: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office work with the Community Stabilization Program implementing
   partner to recalculate all prior baseline and follow-up surveys to accurately
   reflect the changes in survey methodology noted above.

   Recommendation 11: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office work with the Community Stabilization Program implementing
   partner to amend the monitoring and evaluation plan to incorporate the changes
   in survey methodology noted above.

External Monitoring Reports
Could Be Better Utilized

  Summary: Pursuant to USAID policy, adequate documentation of internal control
  activities, such as monitoring, is a key component of overall effective management
  controls. However, the use of recommendations contained in monitoring reports
  prepared by the mission’s monitoring and evaluation contractor was not adequately
  documented by FSPO.           Office officials stated that they either found the
  recommendations too general to be of significant value or they relied instead on
  informal communications with the implementing partner for follow through. Given
  the rapid turnover of personnel in Iraq, failure to act on or adequately document
  and track responses to such recommendations hinders program management and
  ineffectively uses funds spent on the mission’s monitoring and evaluation contract.

As mentioned previously, due to the desire to avoid associating specific projects with the
U.S. Government, FSPO does not perform onsite monitoring of CSP activities. To help
mitigate this, the office receives reports on CSP activities from a number of sources,
such as Brigade Combat Teams and USAID representatives to PRTs. In addition, the
office also utilizes the services of USAID/Iraq’s external monitoring and evaluation
contractor.

Reports from the monitoring and evaluation contractor have provided, and continue to
provide, an in depth look at the existence, quality, and usage of various CSP projects.
Perhaps more importantly, these reports have also included a “lessons learned” section
along with associated recommendations. Given the inherent limitations of monitoring via
Brigade Combat Teams and PRTs, the monitoring and evaluation contractor assumes
an even greater importance as the Agency’s “eyes and ears” for what is happening on
the ground.

ADS 596.3.1 stipulates that USAID managers and staff must develop and implement
cost-effective management controls for results-oriented management to reasonably
ensure that assets are safeguarded against loss and unauthorized use. Furthermore,
the ADS states that management control activities must be both effective and efficient in
accomplishing the Agency’s control objectives. A key control activity is adequate
documentation of internal control, of which monitoring is a central component.


                                                                                        17
Notwithstanding the above criteria, the utilization of recommendations contained in two
monitoring and evaluation contractor reports was not adequately documented by
USAID/Iraq. One USAID official stated that he discussed the reports and associated
recommendations with the implementing partner. However, when we asked this official
for documentation of any communications with the implementing partner, none was
provided. Another USAID official admitted that the recommendations were sometimes
vague, or of limited value, and would therefore be difficult to act on or track.


Monitoring provides additional value added to the management process when it is used
as feedback for refining and improving program activities. Adequately documenting and
tracking the recommendations contained in external monitoring reports can help
USAID/Iraq achieve this goal. A recent monitoring report on employment generation and
youth projects in a northern Iraqi city provides an example in which monitoring and
evaluation contractor recommendations were followed. This report includes a response
by the implementing partner, an action plan, and a tentative timetable. However, the
monitoring and evaluation contractor noted that such a response by an implementing
partner was rare, and commended FSPO for its leadership in this area.

USAID/Iraq operates in what is arguably the Agency’s most complex and fluid
environment. The difficulties of operating in such an environment are exacerbated by
relatively short tours and the rapid turnover of personnel, resulting in a lack of
institutional memory.     Given these factors, documenting the status of program
recommendations – even if a technical decision is made not to pursue the
recommendation – becomes a critical part of program management. Inadequate
documentation of actions or decisions taken as a result of these recommendations,
therefore, detracts from effective program management, and is an inefficient use of the
funds spent on the mission’s external monitoring and evaluation program.

   Recommendation 12: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office establish policies and procedures to formally document and track
   the status of recommendations made by the monitoring and evaluation
   contractor.


Performance Indicators Should
More Closely Link Outputs to
Results

  Summary: According to USAID policy, a good performance indicator should closely
  track the result it is intended to measure. However, a number of performance
  indicators used to assess Community Stabilization Program results merely report
  program outputs. This occurred because USAID focused on other issues in the
  monitoring and evaluation plan, and ultimately needed to approve the plan to start
  program implementation. Without more direct performance indicators that link
  outputs to program results, USAID managers have a more difficult task gauging the
  impact of the Agency’s activities and making any necessary programming
  adjustments to assure achievement of USAID goals.



                                                                                       18
One of the primary tools the Agency uses to manage for results is the Performance
Management Plan, which contains a Results Framework as one of its critical
components. This framework illustrates the steps in reaching USAID goals by showing
how lower-level results contribute or link to the achievement of higher-level objectives.
USAID uses performance indicators to observe progress and to measure actual results
as compared to expected ones. Consequently, good performance indicators are a vital
part of effective performance management.

According to ADS 203.3.4.2, a good performance indicator is direct – that is, it should
closely track the results it is intended to measure. Furthermore, the ADS also states that
a good performance indicator should be useful for decision-making. However, selected
performance indicators pertaining to CSP do not track or link to higher level results but
instead merely state program outputs, and thus have limited utility in assessing progress
toward planned outcomes.

For example, one intermediate result in the Results Framework for CSP is the mitigation
of conflict through increased community activities. One of the performance indicators for
this planned result is the number of youth participating in informal education programs.
Although an important barometer of activity within a certain component of CSP, this
indicator does not show an explicit linkage between youth activities and conflict
mitigation. In order to ascertain the impact of those activities in diminishing conflict, the
performance indicator could, for instance, measure to what degree attitudes towards the
legitimacy of violence and religious and sectarian tolerance had changed among the
youth attending those programs.

Another example is the lower-level result of creating and expanding businesses in order
to help decrease unemployment. Two associated performance indicators for this
outcome are the total value of financial support granted to businesses, and the number
of businesses receiving assistance. While these indicators show the extent of CSP
activity, they do not demonstrate the effects of those activities on decreasing
unemployment. We believe it is possible for even robust CSP business assistance to be
ineffective in terms of generating employment for a number of reasons, such as fraud, a
lack of adequate business skills, or worsening security reducing customer traffic.
Indicators that measure levels of employment, such as revenue generated or taxes
remitted by assisted businesses, may provide more insight into the effectiveness of that
assistance.

The cooperative agreement specifies that USAID and the implementing partner
collaborate in approval of the implementing partner’s monitoring and evaluation plan. An
FSPO official stated that USAID had a number of questions on the monitoring and
evaluation plan, which did result in some plan revisions. We corroborated this official’s
assertions through a review of certain documentary evidence. Nonetheless, due to the
collaborative nature of this process, this official indicated that there was a “futility past a
certain number of revisions.” According to this official, USAID approved the monitoring
and evaluation plan in order to start the program and to put measurements in place that
were feasible. A significant factor in prematurely approving the monitoring and
evaluation plan was the emphasis placed at the beginning of the troop surge on rapid job
creation by CSP projects.




                                                                                            19
Direct and useful performance indicators are at the heart of a mission’s Performance
Monitoring Plan and thus are an integral part of effective program management.
Indicators that illuminate the explicit linkages between the steps necessary to reach
CSP’s goals help explain USAID/Iraq’s specific contributions in a complex operating
environment. Consequently, we are making the following recommendation.

   Recommendation 13: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office reassess the performance indicators in its monitoring and
   evaluation plan to more closely link outputs to results, and to document the
   reasons for its determination.


How has USAID/Iraq designed and implemented its Community
Stabilization Program to help ensure that Iraqis continue to
benefit from its activities after USAID involvement has ended?
The following provides information that describes how USAID/Iraq designed and
implemented the Community Stabilization Program to help ensure that Iraqis benefit
from activities after USAID involvement ends. It then lists some major possible
impediments to sustainability. Sustainable development, as defined in USAID’s Nine
Principles of Development, is designing aid programs so that their impact endures.
CSP, however, was not designed as a traditional, sustainable development program.
CSP was designed to include quick impact and medium-term activities as a link between
U.S. military stabilization efforts under the Commander Emergency Response Program
and longer-term initiatives under the U.S. Government’s Provincial Reconstruction
Teams, elected Iraqi Provincial Councils, and the Government of Iraq. While the major
focus of CSP is on rapidly stabilizing strategic cities, a number of program elements
contain features so that Iraqis continue to benefit from its activities after USAID
involvement has ended. These features include elements such as providing long-term
employment, community infrastructure, and opportunities for business development.

CSP works with Neighborhood Advisory Councils and District Advisory Councils--
consultative civil bodies comprised of influential local citizens--to generate project ideas.
Some projects identified by these councils are then forwarded to the Iraqi equivalent of
city hall for approval. Provincial and ministry-level officials may be involved as well. The
CSP implementing partner noted that government officials in Baghdad had become used
to project-oriented development rather than comprehensive, integrated economic and
social stabilization that required their direct involvement and leadership. This
involvement, and the use of features such as a transparent bidding process, is
conducive to increased effectiveness and accountability, and ultimately legitimacy.

CSP has designed linkages between its various sectors to promote program
effectiveness as well as sustainability. For example, CSP uses clauses in the contracts
of some of its subcontractors to require that a specified percentage of workers on CSP-
funded public works projects are graduates of CSP vocational training programs.
Similarly, CSP has used its vocational and technical training graduates as workers on
projects in its youth activities sector, such as refurbishing sports facilities and
constructing billboards to encourage youth to participate in the Iraqi Ministry of Labor
and Social Affairs’ training activities. In turn, vocational training graduates provide a
readily available pool of skilled labor to new businesses established with the aid of CSP-



                                                                                          20
funded grants; conversely, these grants are also available to entrepreneurially-inclined
graduates who desire to start their own business. Small business development provides
a crucial link between short-term and long-term development activities.

Lastly, the types of community infrastructure projects implemented by CSP are
positioned to contribute to sustainable development. For example, independent
monitoring and evaluation experts contracted by USAID/Iraq have visited such activities
as school refurbishment, road rehabilitation, and the provision of medical equipment to
local hospitals.    Other types of long-lasting infrastructure projects include the
construction of orphanages, homes for the elderly, and facilities to bring clean water to
communities.

Nevertheless, there are certain challenges to sustainability of which the mission is
aware. In addition to ongoing concerns about security, the following are some of these
major challenges:

Corruption - In addition to the concerns raised by military and PRT officials discussed
previously, several CSP program office directors referred to corruption of local Iraqi
officials as a major obstacle in ensuring that CSP activities have a long-lasting, positive
impact. For example, one director described a scheme in which a local government
leader demanded a “contracting fee” for all projects in a specific area. The director
stated that the USAID PRT representative was alerted and all ties with the suspect
parties were cut. Another director described a dynamic in which various Iraqi council
members each had “preferred contractors” for CSP projects. This dynamic reduced
transparency, increased potential corruption, and possibly limited overall program
impact. This same official stated that “a concerted effort by the USG focusing on
promoting and developing a more transparent local infrastructure would be welcomed.”
These allegations were provided to the OIG Office of Investigations for further review.

Monitoring - The inability of USAID to adequately monitor CSP activities due to security
concerns seriously inhibits effective program management. The U.S. military cannot
easily monitor these activities either due to the inherent separation of CSP and Coalition
Forces. These restrictions not only affect current operations, but also impact future
sustainability.

Transition from cleaning campaigns - According to the Baghdad project director,
there has been significant community resistance to CSP’s intent to transition from short–
term cleanup campaigns to other forms of development. This is because the relatively
high wages paid to laborers on CSP cleanup campaigns creates pressure on local Iraqi
governing officials from their constituents to demand that this continue.10 Furthermore, a
military intelligence official stated that these projects created a false expectation of high
wage levels among laborers that could not ultimately be maintained by the Iraqis, kept
young men employed as unskilled laborers rather than learning skilled trades, and
impeded the development of local government capacity to provide such services.

Linkages between CSP components – CSP attempts to utilize linkages between its
training, business development, and public works components in order to create

10
  According to a CSP program office director, workers on CSP clean-up campaigns are paid
10,000 Iraqi dinars per day. This is equivalent to the official government rate for a skilled laborer.
The corresponding rate for unskilled labor is 7,000 Iraqi dinars per day.


                                                                                                   21
employment opportunities and sustainable development. One USAID official observed,
however, that while some apprentices who were graduates of CSP vocational training
were being hired for current projects, they were not always employed in the jobs for
which they were trained. For example, according to this official, a newly trained
electrician might be hired as the supervisor for a trash collection crew. This was due to
a lack of demand for the skills in which participants were being trained. On the other
hand, vocational training graduates had shown little interest in the business grant
program.

Budget Execution - The quality of Iraq’s budget system deteriorated significantly under
the Baathist dictatorship, causing, among other things, substantial delays in budget
execution. The U.S. Government Accountability Office noted in its assessment of
benchmarks for progress in Iraq that the Ministry of Finance had only released ten
percent of the 2007 capital project and reconstruction budget funds to the provinces in
the first five months of 2007.11 Furthermore, provincial governments vary greatly in their
capacity to effectively utilize their central government budget allocations due to differing
security conditions and political dynamics.          Taken together, these issues pose
challenges in a number of areas, such as ongoing maintenance of community
infrastructure or building vocational training capability.

Concerned Local Citizens (CLCs) - “Concerned Local Citizen” is a term used to
designate Iraqi civilians who have been temporarily authorized by Coalition Forces or the
Government of Iraq to augment local force protection, law enforcement, or infrastructure
security schemes in order to improve local security conditions and fight extremism.
These citizens use their personal weapons and are not provided weapons by either the
Coalition or Iraqi Security Forces. Since such concerned local citizens groups are
temporary, a key issue concerns the means of their ultimate reintegration into civilian
society. CSP has been discussed as one avenue for facilitating this reintegration. Given
the large numbers involved--perhaps as high as 100,000--targeting former concern local
citizens may have significant effects. For example, overall employment may be reduced,
certain components of CSP such as youth activities may be de-emphasized, expansion
to 9 new cities may have to be revised, and the transition of essential services to the
Government of Iraq may be delayed.




9
 GAO-07-1195, Securing, Stabilizing, and Rebuilding Iraq: Iraqi Government Has Not Met Most
Legislative, Security, and Economic Benchmarks.


                                                                                         22
OTHER MATTERS 

Branding Policy Should Be
Consistently Followed

     Summary: According to the cooperative agreement between USAID and the
     Community Stabilization Program implementing partner, a waiver from standard
     Agency policy stipulates that program activities are generally not to be marked with
     the USAID or implementing partner logo. However, we noted several instances
     where such branding did take place. Some branding took place to prevent militias
     from obtaining credit for program activities. We also noted confusion among the
     implementing partner’s staff regarding branding policy. Inconsistent branding
     impedes efforts to foster positive perceptions of government by the citizenry.

Standard USAID policy is that Agency programs are marked, or “branded”, with the
USAID logo to ensure that the American people receive credit for the foreign assistance
that they finance. Waivers from this standard policy are authorized if branding poses
safety or security concerns. Due to the security situation in Iraq at the time that the
cooperative agreement was signed, such a waiver was requested and granted for the
Community Stabilization Program.

Modification One to the cooperative agreement between the CSP implementing partner
and USAID states that in some circumstances use of traditional logos might be
permissible. However, “as a general rule, any public communication, procured
item/commodity, program material, signage, etc. that will be used outside the
International Zone or that will pose a safety or security threat will not bare [sic] the
USAID or [implementing partner] logo.” The policy also contains guidance for specific
activities or items such as procured goods and project sites which, according to the
branding policy, will not be marked for safety or security reasons.

We learned of several instances that conflicted with this policy guidance. For example,
OIG auditors were shown photographs of billboards advertising a CSP vocational
training program that displayed the implementing partner’s logo. When this issue was
raised with the recently arrived chief of party, he indicated that his general impression
was that implementing partner branding was not done.12 In another case, a USAID
official stated that a soccer tournament was advertised with the partner’s logo.
According to this official, USAID asked if this branding was in accordance with the
implementing partner’s policy, and the partner’s Washington, DC headquarters replied
that it was not. Finally, we noted in interviews with USAID and PRT officials that another
CSP activity had been branded with the partner logo.




12
  According to USAID, over the past 6 to 8 months, the implementing partner has had several
chiefs of party, the deputy chief of party position has mostly been vacant, and turnover among
senior CSP staff has been high.


                                                                                            23
           Photo of a Baghdad billboard advertising a CSP-sponsored vocational
           education program. The implementing partner’s logo appeared in lower
           portion of the billboard (obscured for security reasons). Translation of
           advertisement – “Join the Ministry of Labor and Social Affairs training as
           a guarantee for you and your family” and “You build Iraq by your hands.”
           Source: USAID/Iraq.

These situations occurred for two reasons. First, there was confusion among partner
staff as to who had responsibility for branding decisions. We asked the chief of party
and several implementing partner program office directors throughout Iraq to indicate
where responsibility for branding decisions resided. The chief of party indicated that
each regional office was independently making its own branding decisions. Conversely,
three of the five directors we contacted noted that such decisions were not made locally,
but were made in either Baghdad or Washington, DC.13 In the case of the billboards, a
CSP implementing partner official from Washington, DC stated that their branding was a
mistake, and that the officials responsible were so advised.

Furthermore, some branding occurred because CSP and local government officials were
concerned that militia leaders opposed to Coalition forces could take credit for CSP
activities. In one instance, equipment was branded with the partner logo, even though
the local USAID PRT representative claimed that these items could have easily been
branded with an Iraqi government logo instead. Regarding such branding initiatives, we
noted contradictory “lessons learned” in the partner’s quarterly report. For example,
one lesson declared that “of primary importance is the perception of the local population
that CSP activities are implemented through the cooperation and coordination of local
government officials [who] are encouraged to mark or brand CSP activities as coming
from the local government,” while another stated that “when possible, and security
permitting, [the partner] should consider marking activities with the [partner’s] logo.”


13
   We did not ask the branding question of one director in a newly established area, and the other
director did not respond to our inquiry.


                                                                                               24
According to a former USAID FSPO official, the equipment branding in the particular
example cited in this paragraph was done at the request of local government officials.

As noted previously, counterinsurgency operations attempt to support the development
of an effective government that is seen as legitimate by the population. Inconsistent
branding can impede these efforts and provide the opportunity for insurgents to claim
credit for the provision of essential services. To its credit, USAID has asked the partner
to specify how it will ensure that CSP activities are attributed to the appropriate
government entity, with special attention to those cases where local governments are
heavily influenced by militias. We agree and are making the following recommendation:

   Recommendation 14: We recommend that USAID/Iraq’s Focused Stabilization
   Program Office request the Community Stabilization Program implementing
   partner to instruct its program office directors to more consistently follow the
   established branding policy.




                                                                                       25
EVALUATION OF
MANAGEMENT COMMENTS
The following summarizes management comments, our evaluation of those comments,
and the status of the audit recommendations made under each finding in this report.
The complete text of management comments is included in appendix II.

Finding: Program is Highly Vulnerable to Fraud and Exploitation

Summary of Management Comments for Recommendation 1: Management described
the evidence of potential fraud in this finding as “a series of unsubstantiated anecdotes.”
Management also indicated that the finding contained several factual errors, faulty logic,
and unsubstantiated conclusions. Management indicated that the correct figure for the
value of suspended projects was $2,700,969 rather than the $8,541,076 included in
Recommendation 1, but then requested that the recommendation be deleted because it
gave the appearance that USAID/Iraq suspended the CSP projects because of our
recommendation whereas management stated that it took action prior to the issuance of
the draft report and did so based on “the receipt of credible information.” Finally,
management took issue with the audit’s reference to “adverse consequences for U.S.
military personnel” stating that it was inflammatory, offensive, and without factual basis.

Auditors’ Response: We acknowledge that proving allegations of fraud is difficult to do
under most circumstances. Nevertheless, the evidence that was presented to us was
sufficiently convincing to result in this audit finding and related recommendations.
According to the USAID PRT representative whose September 1st letter initiated this
finding, sufficient evidence of extortion had appeared in a State Department cable, in
brigade intelligence, and in anecdotal discussions to justify the concerns that led to the
PRT leader, who was a former U.S. ambassador, and the brigade commander directing
him to write the letter. The USAID PRT representative made USAID officials aware of
this on September 6, 2007, as evidenced in the PRT representative’s write-up of a
meeting held on that date at USAID/Iraq. Also, nothing precluded USAID officials from
taking the initiative to travel, as we did, to the Forward Operating Base that had
responsibility for the area of Baghdad in which the allegations occurred to assess this
intelligence for themselves. During our visit to this Forward Operating Base, we
reviewed the evidence supporting the fraud allegations and interviewed U.S. military,
PRT, and USAID personnel who also corroborated the evidence. Unfortunately, much of
the evidence that we reviewed was classified, which prevented us from including it in this
unclassified audit report. However, on numerous occasions we offered to show the
classified material to USAID officials at a secure Embassy site.

Management claimed that our comparison of costs showing that a CSP project was
more costly than a similar CERP project was faulty because it did not take into account
the different scope of each activity in terms of costs per worker. However, a more
relevant measure--cost per day--reveals that the cost of the CSP project was $9,409 a
day compared to only $2,557 a day for the CERP project--over three times as much.
Management used just such a cost-per-day measurement to demonstrate the cost of an
extension for another CSP project later in its management comments. Further, given the



                                                                                        26
inadequate substantiation of CSP employment figures, the U.S. military’s repeated
concerns about “phantom workers,” and the complicity of certain CSP officials in corrupt
activities as mentioned in the November 27th letter (and in other allegations received by
RIG/Baghdad investigators), we believe that any analysis based on reported number of
workers would be highly questionable.

We reviewed management’s claim that we made errors in calculating the balance of
undisbursed funds of suspended projects and have concluded that $8,541,076 is a
reasonably accurate summation of the funds that were put to better use. Although the
allegations focused on street cleaning campaigns, USAID/Iraq understandably decided
to suspend other projects as well, probably because all CSP projects in that district of
Baghdad were subject to the same selection and contracting processes. The estimated
value of cleaning projects that had not been started, as well as remaining balances of
undisbursed funds for completed projects, should both obviously be included in the total
of reprogrammed funds.

More important than agreeing on the amount of funds that were reprogrammed as a
result of suspending CSP projects, however, is determining whether the audit played a
role in that suspension in the first place. Management contends that it took action
independent of the audit and prior to issuance of the draft audit report. We believe that
USAID/Iraq would not have taken this action if the audit had not been focused on the
very allegations that ultimately led to the suspension. Further, the “credible evidence”
upon which management indicated that it based its decision to suspend projects would,
in our opinion, never have been prepared had we not assured the person who prepared
it that we took his previous allegations seriously and that we would protect him from
potential retaliation as a “whistleblower.”

Also, the November 27th letter that management says served as a catalyst for
suspending the projects was simply a continuation of allegations that had been raised
months earlier. The letter states that many of the details provided by a new source
“confirm other information we have obtained over the past months, and have so
informed USAID.” It was precisely because RIG officials visited the Forward Operating
Base, interviewed a number of PRT and military officials, and reviewed classified military
intelligence products that we were able to place both the September 1st and November
27th letters in their proper context and conclude that the overall evidence was sufficiently
convincing to result in this audit finding and related recommendations.

Regarding management’s comments with respect to our references to adverse
consequences to U.S. military personnel, we reiterate that the commanding officer of the
responsible brigade combat team strongly endorsed this depiction during a face-to-face
interview. Further, this language is a restatement of even stronger language used by the
USAID PRT representative in his September 1st letter that was approved by the PRT
leader and the commanding officer. The actual language of that letter was: “The dire
consequence is that American soldiers are killed attempting to secure areas being
destabilized in part by misdirected American dollars.”

Disposition of Recommendation 1: Based on management’s comments that indicate
nonconcurrence with the dollar amount cited in this finding, as well as a lack of
attribution to the audit, a management decision has not been reached on this
recommendation.



                                                                                         27
Summary of Management Comments for Recommendation 2: Management did not
agree with Recommendation 2 and suggested deleting it from the audit report. This was
based on management’s contention that there was no factual basis that fraud had
occurred in other Baghdad districts, and that CSP had a rigorous monitoring and
evaluation component, USAID/Iraq employed a monitoring and evaluation contractor,
and FSPO had built strong relationships and open lines of communication with PRTs
and the U.S. military.

Auditors’ Response: Management comments reflect a change from actions taken
immediately after making the decision to suspend CSP projects in one district of
Baghdad. In an e-mail to RIG/Baghdad shortly after deciding to suspend those projects,
the USAID/Iraq mission director stated that “we will be looking at our entire effort in
Baghdad, including [the neighboring district].” Furthermore, a deputy commanding
general of the division then deployed to Baghdad indicated to USAID/Iraq officials a
desire to review cleaning projects across the city for indications of infiltration or
intimidation, and offered to help in this effort. A USAID/Iraq official agreed with this
request. This same USAID official informed PRT officials that he couldn’t “rule out the
possibility of broader exposure” to similar problems, and indicated a desire to coordinate
efforts to determine if the problem extended to other PRT locations. Given these
responses at that time, we believe that inclusion of this recommendation is appropriate.

In addition, we note that in recent months RIG/Baghdad investigators have received a
substantial number of allegations of fraud relating to CSP activities. These allegations
encompass not only parts of Baghdad outside the district in which CSP operations were
suspended, but also other cities within Iraq. Consequently, we have added a paragraph
to our report that includes this new information and broadened Recommendation 2 to
include all communities, inside and outside of Baghdad, in which CSP operates.

To be responsive to this recommendation, USAID/Iraq would simply have to
communicate with CSP stakeholders, including the U.S. military, and request that all
allegations of fraud relating to CSP projects be forwarded to the mission. In conjunction
with that request, a classified email address should be made available to receive any
allegations of a classified nature.

Disposition of Recommendation 2: Based on management’s nonconcurrence with the
finding, a management decision has not been reached on this recommendation.

Summary of Management Comments for Recommendation 3: Management indicated
agreement with the portion of Recommendation 3 to improve coordination among
stakeholders and stated that it had finalized a written “communications protocol” to help
guide interactions and relationships between the CSP implementing partner, the PRTs,
and FSPO. With regard to discussing the feasibility of vetting CSP contractors through
military databases, management concluded that it would not be feasible on a consistent
basis. Management commented that while it encourages its PRT representatives to
have brigades vet CSP contractors whenever possible, it cannot be a mandated policy
because USAID does not have authority to enforce such a recommendation upon
military brigades.

Auditors’ Response: We applaud management’s actions to improve the coordination
among CSP stakeholders. However, to thoroughly assess the feasibility of vetting CSP
contractors through U.S. military databases, we believe that it is essential to involve


                                                                                       28
appropriate representatives from the implementing partner, PRTs, and the U.S. military
in such discussions. Also, we are not recommending that vetting through the U.S.
military become a mandated policy, but that stakeholders be involved in a discussion of
the feasibility of such vetting with the goal of collaborating on an effort to reduce the risk
of fraud.

The commanding officer of the brigade combat team that we visited stated that the CSP
implementing partner did not have a sufficient vetting process and noted that intelligence
officers in his brigade had access to an up-to-date computerized database that was used
to vet contractors. In response to our query as to whether the vetting of potential CSP
contractors through the U.S. military would be worthwhile, another military officer stated:

       It would absolutely be worthwhile to vet potential contractors in advance
       of awarding a contract vice playing catch up after the contract has been
       awarded. In an insurgency, [the CSP implementing partner] must know
       who the bad actors are...if not, they would potentially be supporting the
       insurgency if contracting them and providing them profit.

Given the reports of potential wrongdoing by both CSP and local Iraqi officials that have
been brought to our attention, we feel that a recommendation to have stakeholders
discuss the feasibility of an independent vetting mechanism is appropriate.

Disposition of Recommendation 3: Based on management’s comments, there is no
indication that USAID/Iraq intends to discuss the feasibility of vetting CSP contractors
through U.S. military databases as specified in the recommendation. Accordingly, a
management decision has not been reached on this recommendation.

Summary of Management Comments for Recommendation 4: Management agreed with
Recommendation 4 and indicated that, by May 31, 2008, it would document the
implementing partner’s measures to tighten internal controls and increase monitoring of
CSP projects.

Auditors’ Response: A copy of the documentation should be sent to USAID’s Audit,
Performance, and Compliance Division to provide evidence of final action and close the
recommendation.

Disposition of Recommendation 4: Based on management’s comments, a management
decision has been reached on this recommendation.

Finding: Allegations of Fraud Were Not Promptly Reported to Office of Inspector
General

Summary of Management Comments for Recommendations 5 and 6: Management
stated that the matters discussed in these initial sections of the audit report did not merit
notification to the OIG. Nevertheless, management agreed with recommendations 5 and
6, and indicated that corrective action had already been taken.

Auditors’ Response: We disagree with management’s conclusion that the fraud
allegations did not merit notifying OIG personnel. We believe it is management’s
responsibility to report any indications of potential fraud, waste, or abuse to OIG. We
were not notified in a timely manner of the September 1st letter regarding potential fraud


                                                                                           29
or the existence of corroborating evidence made known to mission officials on
September 6th, even though our audit notification letter was sent to USAID/Iraq officials
on September 4th and an entrance conference held on September 13th. Moreover,
during an interview with the FSPO director on September 11th we specifically asked if he
knew of any areas of inquiry that would result in a more effective audit. The issues
contained in the September 1st letter and the September 6th meeting were not brought to
our attention at that time.

Disposition of Recommendation 5: Based on management’s comments, and our receipt
of a copy of policies and procedures developed by FSPO and disseminated to its
employees, a management decision has been reached on this recommendation and
final action has been taken. Consequently, this recommendation is closed upon report
issuance.

Disposition of Recommendation 6: Based on management’s comments, and our
participation in a fraud awareness briefing to CSP implementing partner employees, a
management decision has been reached on this recommendation and final action has
been taken. Consequently, this recommendation is closed upon report issuance.


Finding: Documentation of Employment Generated by CSP Projects is Inadequate

Summary of Management Comments for Recommendations 7, 8, and 9: Management
concurred with our finding while also stating its belief that the inadequate substantiation
of employment was not sufficient to infer “that CSP as a whole was not contributing to
USG objectives in Iraq.” In addition, management suggested that we re-word our
concluding paragraph for this finding to specify that the conclusions drawn were for
Baghdad only, not the entire program. Regarding Recommendation 7, management did
not agree with the wording of the recommendation and suggested that it be changed to
recommend that USAID/Iraq review the CSP implementing partner’s internal control
procedures.      Regarding Recommendation 8, management agreed with the
recommendation and stated its intention to include the reconciliation of employment data
as part of a revised monitoring and evaluation plan. Regarding Recommendation 9,
management agreed to review the $39,821 in questioned costs to determine its
allowability.

Auditors’ Response: As indicated in our report we did not state that CSP was not
achieving its intended result. Rather, we indicated that the inadequate substantiation of
employment was one of the factors which led us to conclude that we could not determine
whether CSP was achieving its intended result.

Due to the security situation, our sample was only drawn from Baghdad. However, since
the preponderance of reported CSP employment was generated in Baghdad, we believe
that our testing was sufficient to base an overall assessment on those extrapolated
results. Even if one assumes that non-Baghdad locations had 100 percent of
employment adequately substantiated, Iraq-wide substantiation would have still been
only 55.4 percent.

In response to management comments, we have revised Recommendation 7 to
recommend that USAID/Iraq perform a data quality assessment of the CSP
implementing partner’s job creation data being reported to USAID/Iraq. This


                                                                                        30
assessment should also evaluate the adequacy of the implementing partner’s internal
controls relating to that data.

Disposition of Recommendation 7: Management has not yet commented on the revised
recommendation. Consequently, a management decision has not been reached on this
recommendation.

Disposition of Recommendation 8: Based on management’s comments, a management
decision has been reached on this recommendation.

Disposition of Recommendation 9: Based on management’s comments, a management
decision will be reached once mission officials determine the allowability of these
questioned costs. In the meantime, a management decision has not been reached on
this recommendation.

Finding: Results of Local Government Effectiveness Surveys Could Be Improved

Summary of Management Comments for Recommendations 10 and 11: Management
acknowledged that a weakness existed in its survey methodology, but downplayed the
impact of that weakness by stating that “the overall survey results are only meaningful to
analyze trends in citizen satisfaction over time.”

Auditors’ Response: The target for this satisfaction indicator in the CSP monitoring and
evaluation plan was an absolute figure of 60 percent, and not one based on any trend
from baseline or follow-up surveys. Moreover, management’s comments indicated that
a response of 3 meant “unsatisfied.” As stated in the draft report, a score of 3 “indicates
that the respondent is neither satisfied nor dissatisfied.” Regardless, management has
acknowledged a flaw in survey methodology that results in the incorrect computation of a
performance indicator.

Disposition of Recommendation 10:       Based on management’s comments, a
management decision has not been reached on this recommendation.

Disposition of Recommendation 11:       Based on management’s comments, a
management decision has not been reached on this recommendation.


Finding: External Monitoring Reports Could Be Better Utilized

Summary of Management Comments for Recommendation 12: Management agreed
with this finding and recommendation, and indicated that FSPO had already established
policies and procedures to follow up on external monitoring reports. Management stated
that we were not aware of follow up actions since we did not talk to appropriate
personnel. Management also requested that a reference in our report pertaining to a
statement by the monitoring and evaluation contractor be deleted or put into the proper
context.

Auditors’ Response: Questions concerning the utilization of external monitoring reports
were first brought to FSPO’s attention during an interview with both the former and
current FSPO directors on September 19, 2007. Immediately after a meeting with both
the current director and the cognizant technical officer on November 21, 2007, we


                                                                                        31
received evidence that FSPO was now documenting responses to findings and
recommendations in external monitoring reports. However, we have not received copies
of the policies and procedures cited by management. Evidence documenting the
policies and procedures that have been adopted in practice should be sent to
M/CFO/APC in order to close this recommendation. We modified the reference to the
monitoring and evaluation contractor’s statement to clarify that it was complimentary.

Disposition of Recommendation 12:       Based on management’s comments, a
management decision has been reached on this recommendation.


Finding: Performance Indicators Should More Closely Link Outputs to Results

Summary of Management Comments for Recommendation 13: Management agreed
that good performance indicators were a vital tool for program management, but
disagreed with Recommendation 13 because it did not take into account the practical
limitations of measuring higher-level indicators that were specific to CSP and the Iraqi
environment.

Auditors’ Response:        We consider management’s comments in response to
Recommendation 13 to reflect a thorough and in-depth assessment of its performance
indicators sufficient to meet the intent of the recommendation.

Disposition of Recommendation 13:        Based on management’s comments, a
management decision has been reached on this recommendation and final action has
been taken. Consequently, this recommendation is closed upon report issuance.

Other Matters: Branding Policy Should Be Consistently Followed

Summary of Management Comments for Recommendation 14: Management agreed
with this recommendation.

Auditors’ Response: While management stated that it agreed with this recommendation,
it did not provide evidence that it had requested the CSP implementing partner to
instruct its program office directors to more consistently follow the established branding
policy.

Disposition of Recommendation 14: A management decision has not been reached on
this recommendation.




                                                                                       32
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General in Baghdad conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine: (1) if USAID/Iraq’s Community Stabilization Program (CSP) was achieving its
intended result with regard to activities in the community infrastructure and essential
services component, and (2) how USAID/Iraq has designed and implemented its
Community Stabilization Program to help ensure that Iraqis continue to benefit from its
activities after USAID involvement has ended.         Fieldwork was performed from
September 13, 2007 to December 10, 2007 in the International Zone and at Camp
Liberty, Baghdad, Iraq; and in Amman, Jordan.

A scope limitation existed on the selection of site visits. This was attributable to USAID’s
insistence that the operational security of the CSP implementing partner and staff could
only be maintained if CSP avoided visible association with U.S. Government or military
personnel. We mitigated the effect of this limitation by relying on the work of
USAID/Iraq’s monitoring and evaluation contractor (described below) and
communicating via e-mail with CSP implementing partner and USAID Provincial
Reconstruction Team (PRT) personnel located outside Baghdad. However, apart from
our finding that the documentation of reported employment was inadequately
substantiated, we were not able to assess the adequacy of the CSP implementing
partner’s overall internal controls over employment at CSP work sites since we could not
observe those controls in practice. In addition, we restricted the scope of our testing of
employment records to projects in Baghdad that were begun prior to September 30,
2007. These records were located in the International Zone and in Amman, Jordan. In
our judgment, this restriction did not affect any of our conclusions, because, according to
CSP records, 74 percent of the 259,429 person-months of short-term employment
generated by CSP through September 30, 2007 were attributable to those Baghdad
projects.

The audit relied on the work of the monitoring and evaluation contractor to obtain
evidence of the existence of CSP activities in Iraq and furnish insights on challenges to
CSP sustainability. This evidence consisted of selected reports that were prepared by
the contractor on CSP activities prior to the commencement of audit fieldwork. In order
to determine whether the audit could rely on those reports, we interviewed officials from
the contractor at their International Zone office to evaluate their qualifications,
experience, competence and independence. Our interview indicated that we could rely
on the contractor’s reports.

Methodology
To establish criteria for answering the first audit objective, the audit team devised a
methodology to determine: (1) whether CSP’s intended result was being achieved, and
(2) if there was a reasonable basis for stating that CSP’s activities were contributing
towards that result.




                                                                                     33   

For (1), we utilized the baseline and follow-up surveys used to measure citizens’
perceptions of local government effectiveness. Follow-up surveys were conducted at
approximately 6-month intervals after the initial baseline surveys. These surveys were
performed by a firm under contract with the CSP implementing partner. According to the
survey reports, each survey covered all sections of the target area to yield 400
successfully completed interviews, which would result in a margin of error of less than
+/- 5 percent at a 95 percent confidence level. For each of 12 areas in which CSP
baseline and follow-up surveys were completed, we compared the follow-up survey to
the baseline. We then computed the number of positive and negative changes. If a
majority of the changes were positive, we concluded that the intended result had been
achieved.

For (2), we reviewed the reported employment generated by CSP public works and
infrastructure activities. If these employment figures were adequately substantiated, we
would conclude that there was a reasonable basis for stating that CSP was contributing
towards the intended result. We considered substantiation to be adequate if 90 percent
or more of reported employment was sufficiently supported.

To answer the audit objectives, the audit team conducted interviews, reviewed
documents, and performed various analytical procedures. Among U.S. Government and
military officials, we interviewed USAID/Iraq’s Focused Stabilization Program Office
officials, four USAID PRT representatives, a PRT Team Leader, a USAID/Iraq program
specialist, and an assortment of U.S. Army officers, all in person. In addition, we
conducted e-mail correspondence with other USAID PRT representatives as necessary.
Among the CSP implementing partner’s staff, we interviewed the chief of party, four
program office directors, and both the outgoing monitoring and evaluation director and
his temporary replacement. We also held conversations with other partner officials
during our site visits to the implementing partner’s International Zone and Amman,
Jordan offices. As noted above, an interview was also held with the monitoring and
evaluation contractor.

The audit team reviewed a number of documents, such as the cooperative agreement,
CSP quarterly reports prepared by the implementing partner, the USAID/Iraq
Performance Management Plan, the implementing partner’s performance and evaluation
plan, monitoring reports, and polling surveys. The audit team also had access to a
number of classified and unclassified intelligence reports which were viewed at both
Camp Liberty and the U.S. Embassy in Baghdad. We also obtained and reviewed a
significant amount of e-mail and other correspondence, especially pertaining to the
potential fraud discussed in our first finding. Finally, the audit team also reviewed a
sample of payment vouchers from the CSP implementing partner to CSP contractors,
plus the associated contracts and other supporting documentation, such as timesheets.

Regarding our review of employment documentation, we randomly selected 66 projects
that, according to the CSP implementing partner’s database, generated 144,626 person
months of employment in Baghdad since the inception of CSP. These represented 75
percent and 56 percent of the total person-months in Baghdad and throughout Iraq,
respectively. The sample size was selected to yield a 4 percent margin of error at a 95
percent confidence level. For each project, we identified the number of jobs that were
adequately substantiated. The audit team considered employment to be adequately
substantiated if the voucher evidencing payment from the CSP implementing partner to


                                                                                     34
the contractor contained completed timesheets signed by the applicable employees. We
then calculated the total number of adequately substantiated person-months of
employment generated by the projects. Next, we compared these results with those
reported and projected any variations to the population of person-months of employment
reported for Baghdad as of September 30, 2007. The projected results are shown in
appendix IV.

We also performed analytical procedures on the baseline and follow-up surveys on
citizens’ perceptions of local government effectiveness. These included recalculating
the tabulations performed by the CSP implementing partner to ensure mathematical
accuracy, correcting several mathematical errors noted, and performing new
computations to reflect a tabulating methodology that we considered to be more
appropriate.




                                                                                   35
                                                                             APPENDIX II 




MANAGEMENT COMMENTS



                                                                           March 8, 2008

MEMORANDUM
UNCLASSIFIED

To:            Regional Inspector General/Baghdad – Jay R. Rollins
From:          Mission Director – Christopher D. Crowley
Subject:	   USAID/Iraq Management Comments on Draft Audit Report E-267-08-011-
            P, Community Stabilization Program

USAID/Iraq appreciates the opportunity to provide comments on the Regional Inspector
General’s (RIG) draft audit report regarding the Community Stabilization Program (CSP).
We have reviewed the report in detail and appreciate the useful and constructive
suggestions. USAID/Iraq offers the following for your consideration in preparation of the
final report.

General Comments

The RIG states that it was “unable to determine if the Community Stabilization Program
is achieving its intended result with regard to the community infrastructure and essential
services component.” (p. 1) The reasons cited are inadequate documentation of CSP
employment generation activities in Baghdad and vulnerability of the program to
potential fraud.     USAID/Iraq accepts the need to improve documentation and
acknowledges the high degree of risk associated with a program like CSP in a war zone.
But despite these challenges, the bulk of the evidence is that CSP has been very
successful.

Most notably, USAID’s independent monitoring and evaluation (M&E) contractor has
scrutinized CSP activities in all geographical areas and across each of the program
components. Inevitably, there have been specific issues with individual projects, but
their conclusions have been extremely positive overall. For example, the report on the
same type of employment generation activities in Baghdad that the RIG looked at
included site visits to 43 randomly sampled projects, surveys with program participants
and interviews with local Iraqi officials. The conclusion reached was that “overall, and by
a wide margin, projects were found to be successful. There were few contrary
indications.” (emphasis in original)

The eight other reports on CSP from USAID’s M&E contractor, representing thousands
of hours of field work, contain similar findings: “most projects were regarded by the
community as successful” (Mosul infrastructure); “five of six business owners noted they
are on track…and that the grant has had a positive impact on their lives” (Kirkuk


                                                                                    36
                                                                             APPENDIX II 



business); and “all of the vocational training participants that were interviewed reported
that the training had made a difference in their lives and that they would recommend the
training to others” (Baghdad VoTech).

The feedback from USAID’s Provincial Reconstruction Team (PRT) Representatives
(Rep) and U.S. military personnel is also positive. PRT reporting, regular coordination
meetings, routine correspondence and other documentation indicate overwhelmingly
that CSP is one of the most effective counterinsurgency (COIN) efforts the USG is
undertaking in Iraq. It is not clear from the audit report whether the RIG reviewed this
documentation and/or interviewed civilian and military field staff and commanders, but
most would echo the words of General David Petraeus in stating that CSP is “precisely
what we need to do” and is “a wonderful program and we applaud it.” (Battle Update
Assessment, October 12, 2007) Ambassador Ryan Crocker has also praised CSP,
noting in his Congressional testimony last September that “USAID community
stabilization funds provide tens of thousands of jobs throughout the country.”

USAID/Iraq is cognizant that implementing a program like CSP in this challenging
security environment is inherently difficult. Any USAID program based more on the
Army’s FM 3-24: Counterinsurgency than the Agency’s Nine Principles of Development
is going to have inherent risks associated with such an effort, particularly one operating
on the scale of CSP and in the midst of an insurgency. The audit report mentions these
distinctions in passing, but overall, USAID/Iraq finds that the RIG did not adequately
account for the unique nature of CSP, the compelling foreign policy interests that led to
its creation, and the context in which the program operates.

Specific Comments

Finding: Program is Vulnerable to Fraud and Exploitation

According to the RIG, “evidence of potential fraud within certain CSP projects” was
found in one specific district in Baghdad. While such fraud and exploitation may or may
not have occurred, the audit report cites what is a series of unsubstantiated anecdotes.
The only empirical evidence is irregularities in the timesheets on 1 of the 31 cleaning
campaign projects in the relevant district. USAID/Iraq recognizes, however, that the RIG
cannot divulge classified information in this report. If such information substantiates the
allegations of fraud and exploitation, we request an opportunity to review it in an
appropriate venue.

The fourth paragraph on page 7 of the audit report presents a cost comparison of CSP
and military CERP cleaning projects as an indication of fraud. However, the disparity
cited between the $156,000 CERP project and the $846,795 CSP project is due to the
different scopes of each activity. The CERP project employed 50 workers for 61 days,
whereas CSP employed 294 workers for 90 days, so the unit cost of CSP’s activity was
actually 37% less. In the other example cited, the documentation provided to the RIG
appears to be incomplete. The “original” contract was actually amended twice, bringing
the total value to $720,000. The extension was for $226,467. While this does represent
an increase in the cost per day, the amount is still within the range of similar cleaning
contracts.

The extrapolations made in the second paragraph on page 8 appear to be based on
allegations made by one individual and his rough estimation of the extent of potential


                                                                                        37
                                                                               APPENDIX II 



fraud. The audit report does not explore this individual’s credibility or basis of
knowledge, and no evidence is presented that would corroborate his assertion that 40-
50% is an accurate benchmark for estimating precise dollar amounts that may have
been defrauded or that may be at risk.

There are also several factual errors in this paragraph. The audit report should make
clear that the allegations in this district were limited to cleaning campaigns.
Disbursements through November 17 for cleaning activities were $13,763,982, not the
figure of $16,755,374 used as the basis for extrapolation. Of the $8,541,076 referred to
as the remaining balance, $1,650,504 represents the savings between the contracted
amount and the actual disbursements on completed projects. The remaining balance on
non-cleaning projects is $1,604,511, and $2,585,092 is the estimated value of projects
that were never started. Thus, the correct figure for the remaining balance is $2,700,969
(not $8,541,076). Moreover, this lesser amount was never at risk because, as noted in
the report, USAID/Iraq had already suspended all operations in this district and its
partner had canceled all contracts.

We would like to point out that one of the “compelling indications” of fraud in this district
was the assertion that CSP funds were being extorted by at least one militia leader.
Evidence for this came in part from a U.S. military intelligence official, who noticed that
the militia’s other fundraising activities, such as kidnapping, increased after CSP and
other USG-funded projects were halted, indicating the possibility that USG funds may
have been a source of funding. This is counterintuitive. Based on COIN doctrine, an
informed observer would almost certainly conclude the opposite: that by ending
legitimate employment generation efforts and depriving thousands of Iraqi men of the
means to sustain their families, the decision to suspend USG activities inadvertently
increased the incentive to raise money through kidnapping. Assigning causality in
systems as complex as insurgencies is notoriously difficult.

The third paragraph on page 8 should be deleted in its entirety. The audit report
presents no credible evidence for the claim that there are “similar allegations” in a
neighboring district, also covered by the same USAID PRT Rep. In fact, in his
November 27th letter the USAID PRT Rep stated explicitly that the allegations were not
valid for the neighboring district and that CSP activities should continue. A substantial
amount of e-mail correspondence on file in the last two months confirms that the USAID
PRT Representative and military Brigade strongly support CSP activities in the
neighboring district, including cleaning campaigns.

USAID/Iraq takes issue with the references on pages 7 and 9 to “adverse consequences
for U.S. military personnel” due to possible fraud on CSP activities. We find such
insinuations inflammatory and offensive, as the report does not present any factual basis
to support them.

Recommendation No. 1: We recommend that USAID/Iraq immediately suspend ongoing
Community Stabilization Program projects in the particular district discussed in this
report in order to eliminate any additional exposure to fraud and to reprogram the unpaid
balance. As of November 17, 2007, the unpaid balance for these projects (for contracts
that were either ongoing or tendered) was $8,541,076.

Within 24 hours of receiving the November 27th letter from the USAID PRT Rep,
USAID/Iraq’s Focused Stabilization Program Office (FSPO) had verbally instructed its


                                                                                          38
                                                                               APPENDIX II 



partner to hold all payments on projects in this district until further notice. On December
2, 2007, after gathering detailed information on the status of activities and consulting with
Mission Management, FSPO issued written instructions to its partner to suspend all
activities and payments in the district. The RIG was copied on the December 2nd letter,
which is evident by footnote 3.             Therefore, USAID/Iraq requests that this
recommendation be deleted. It gives the misleading appearance that USAID/Iraq’s
actions were the result of the RIG’s recommendation, when in fact they were based on
receipt of credible information from the USAID PRT Rep and occurred almost two weeks
prior to the issuance of the audit report.

USAID/Iraq requests this recommendation be considered resolved (i.e. management
decision reached) and closed upon issuance of the report based upon actions already
taken.

Recommendation No. 2:         We recommend that USAID/Iraq review Community
Stabilization Program projects in other Baghdad districts to determine whether they
should be suspended for the reasons cited in Recommendation No. 1.

USAID/Iraq does not agree with this recommendation and suggests deleting it from the
audit report. As discussed above, there is no factual basis for concluding that fraud has
occurred in other Baghdad districts; the audit report itself notes that “allegations as
detailed as these only arose from one area in Baghdad.” (p. 9) Moreover, CSP has a
rigorous monitoring and evaluation component, USAID/Iraq employs an independent
contractor to monitor CSP and other programs, and FSPO has built strong relationships
and open lines of communication with USAID’s PRT Reps and the U.S. military. All of
these parties work diligently to help ensure CSP activities are meeting objectives, and all
are aware that even the appearance of impropriety should be brought to USAID’s
attention immediately.

Recommendation No. 3: We recommend that USAID/Iraq meet with appropriate officials
from the Community Stabilization Program, Provincial Reconstruction Teams, and the
United States military to improve coordination and discuss the feasibility of vetting
potential Community Stabilization Program contractors through military intelligence
databases.

USAID/Iraq agrees with the RIG’s recommendation to improve coordination among
stakeholders. FSPO and its CSP partner will continue to coordinate with the
Government of Iraq (GoI), U.S. military, PRTs, community groups and other USAID
implementing partners. Indeed, given the size and complexity of CSP and the number of
parties involved, extraordinary efforts have been made to synchronize operations,
including a detailed weekly reporting package that is sent to all USAID PRT Reps.

USAID/Iraq acknowledges that CSP coordination has been a challenge in Baghdad and
that the role of USAID PRT Reps as Activity Managers has led to some confusion. For
these reasons, and in accordance with the results of an audit of USAID’s PRT effort
(report E-267-07-008-P), USAID/Iraq has finalized a written “communications protocol”
to help guide the interactions and relationships between CSP, the PRTs and FSPO.
Although coordination is an ongoing effort, USAID/Iraq requests that this
recommendation be considered resolved (i.e. management decision reached) upon
issuance of the report because USAID/Iraq approved this protocol on February 24, 2008.



                                                                                          39
                                                                             APPENDIX II 



With regard to vetting CSP contractors through military databases, USAID/Iraq has
discussed the vetting of CSP contractors through military databases and has concluded
that it is not feasible on a consistent basis. The audit report does not provide sufficient
analysis to conclude that the various military Brigades and other command elements
have the capacity and desire to vet CSP contractors, particularly given the imminent
drawdown of U.S. forces. Given the sheer number of contracts that CSP awards, this
will slow or stop service provision, erode the ownership of projects by local GoI officials
(who also vet CSP contractors), and significantly increase CSP management costs.
While USAID/Iraq encourages its PRT representatives to have Brigades vet CSP
contractors whenever and wherever possible, it cannot be a mandated policy; neither
USAID nor its PRT representatives have the authority to enforce this recommendation
upon military Brigades. As such, the guidance in the communications protocol is that
CSP may contact a PRT or military unit “for information on local contractors, and may
request support for background checks and other information on contractors and/or
program participants.”

Recommendation No. 4: We recommend that USAID/Iraq take steps to increase its
monitoring of Community Stabilization Program projects, with special emphasis on
preventing and detecting fraud by obtaining reasonable assurance that the number of
workers paid corresponds to the number that actually worked.

USAID/Iraq agrees with this recommendation. USAID/Iraq and its CSP partner have
always made reasonable efforts to prevent and detect fraud and to monitor CSP
activities, including the use of an independent monitoring contractor. In addition,
USAID/Iraq’s partner has taken significant measures to tighten internal controls and
increase monitoring of projects, some of which were discussed on page 13 of the audit
report. USAID/Iraq will document these measures and communicate them to AID/W,
M/CFO/APC (Audit Performance and Compliance) to close this recommendation.

With regard to reconciling the number of workers paid to the number that actually
worked, USAID/Iraq’s focus will be to ensure that CSP’s implementing partner has
adequate and effective written quality control procedures in place to ensure that the
number of workers paid corresponds to the number that actually worked. Please see
Recommendation No. 7 for further discussion of this issue. By May 31 2008,
USAID/Iraq will provide further information to the RIG to close Recommendation No. 4.

Finding: Allegations of Fraud Were Not Promptly Reported to Office of Inspector
General

USAID employees are always at liberty, without contacting a supervisor, to report
allegations relating to fraud, waste, abuse, corruption or any violation of law, regulation
or rule involving USG funds, projects, operations or employees directly to the Office of
Inspector General (OIG). It is not FSPO or USAID/Iraq policy or practice to ever
discourage an employee from reporting an allegation to the OIG directly. That does not,
however, mean that every USAID employee must report every unsubstantiated
allegation directly to the OIG, which is the assumption upon which this finding is
premised.

To cite the same three sources as in the audit report, 2 FAM 031.1-5 states, in part:
“employees should report questions of waste, abuse, or mismanagement normally to
that level of bureau, office, unit, or post management best able to effect prompt


                                                                                        40
                                                                              APPENDIX II 



corrective action.” If, however, the employee does not believe this has achieved proper
results, he/she is encouraged to report the issue directly to the OIG. Clearly, the FAM
contemplates employees raising allegations through their chain of command with the
option, as they believe necessary, to go directly to the OIG. The Standards of Ethical
Conduct for Employees of the Executive Branch (5 CFR Section 2635.101(b)(11)) simply
states: “employees shall disclose waste, fraud, abuse, and corruption to appropriate
authorities.” Again, there is no indication that every accusation, regardless of source or
merit, must be reported directly to the OIG. USAID Handbook 24 also indicates that
employees may report suspicious activity to a supervisor.

USAID/Iraq recognizes that it has the primary responsibility for ensuring that programs
are implemented efficiently, effectively, accountably, and in compliance with applicable
rules and regulations. We also recognize the value of reviewing assertions of
wrongdoing and gauging the seriousness and credibility of an allegation before electing
to pass it on to the OIG. In the case of CSP, as stated in the audit report, “the vast
majority of allegations were ambiguous to the point of not being useful.” (p. 11) Initially,
this was clearly the case in the matter discussed in this and the previous section of the
audit report.

FSPO received contradictory information from the PRT and the relevant military
personnel, which made it difficult to judge the veracity of the allegations. Senior military
engineering staff questioned the credibility of the USAID PRT Rep on this matter, and
the USAID PRT Rep stated that he was not sure whether the concerns of the PRT Team
Leader (Department of State) and Commanding Officer were warranted. As indicated on
page 7 of the audit report, FSPO also discussed the allegations with a senior military
official, who asserted that while the military had concerns, “the level of proof is not such
that action can be taken,” a position he confirmed some months later to the RIG. It
should be noted that FSPO had a long-standing relationship with this officer, and had
been meeting with him and his staff on a weekly basis since November 2006, well before
the USAID PRT Rep arrived. In addition, in meetings on July 19 and September 6,
2007, CSP and FSPO staff asked directly whether cleaning campaigns should be
stopped. On both occasions, senior civilian and military PRT personnel answered no.

In light of the mixed signals from the PRT, FSPO believed that the USAID PRT Rep was
the person physically and institutionally closest to the people alleging the fraud. As
such, the USAID PRT Rep was best placed to gather evidence and make
recommendations. FSPO also instructed the USAID PRT Rep that if he felt strongly
about the fraud allegations he could notify the OIG. And as noted in the audit report,
FSPO notified USAID Mission Management, who also concluded that the facts were not
credible enough to merit notification to the RIG. We believe the actions of Mission
Management were in accordance with Agency policy and moreover, based upon
professional judgment in light of the facts presented.

Recommendation No. 5: We recommend that USAID/Iraq’s Focused Stabilization
Program Office establish policies and procedures reminding Focused Stabilization
Program Office employees of their responsibility to promptly report any allegations of
fraud and abuse to the Office of Inspector General.

Recommendation No. 6: We recommend that USAID/Iraq’s Focused Stabilization
Program Office establish policies and procedures to have Office of Inspector General
investigators provide fraud awareness briefings to Community Stabilization Program


                                                                                         41
                                                                              APPENDIX II 



implementing partner officials.

Despite serious reservations about this section of the audit report, USAID/Iraq agrees
with Recommendations No. 5 and 6 and has already taken appropriate actions. FSPO
employees were informed of their responsibilities with regard to reporting possible fraud,
and on January 14, 2008 the RIG gave a fraud awareness presentation to senior CSP
field staff at their quarterly conference. This had been scheduled for November, but was
canceled due to security concerns. FSPO and CSP leadership will invite the RIG to give
similar presentations at future conferences.

On January 29, 2008, USAID/Iraq conducted further training for its PRT staff to remind
them of their duties and rights related to reporting issues to the OIG and whistle blowing
in general. Additional sessions for Baghdad-based staff are being scheduled.

USAID/Iraq will respond to the RIG by March 15, 2008. USAID/Iraq requests
Recommendations No. 5 and 6 be considered resolved (i.e. management decision
reached) and closed upon issuance of the report.

Finding: Documentation of Employment Generated by CSP Projects is Inadequate

USAID/Iraq generally concurs that documentation of some CSP activities could be
improved. However, we do not believe that the deficiencies reported are sufficient to
infer broadly that CSP as a whole is not contributing to USG objectives in Iraq. As
stated above, USAID/Iraq’s M&E contractor has concluded that CSP projects are
successfully meeting their objectives, basing their findings on 216 actual site visits to
CSP activities. Furthermore, the audit report recognizes that USAID/Iraq’s partner has
taken significant measures to tighten internal controls, as discussed at the bottom of
page 13. Accordingly, we recommend that the entire third paragraph on page 14 be
deleted or re-worded to specify that the conclusions drawn are for infrastructure and
essential service projects in Baghdad, not the entire program.

The audit report would be strengthened by reference to the context in which project
documentation and reporting are carried out. CSP was intentionally designed to operate
in some of the most dangerous areas of Iraq, helping to stabilize communities soon after
major military operations have ended. Security restrictions on movement and high-
profile protective details make it extremely difficult for USAID/Iraq or its partner to make
regular visits to projects sites. Such visits would also endanger the lives of participants
by association with the USG.

Recommendation No. 7: We recommend that USAID/Iraq amend the cooperative
agreement with the Community Stabilization Program implementing partner to require
that adequate and authentic timesheets documenting employment be available for
review upon request by mission personnel.

USAID/Iraq does not agree with the wording of this recommendation. As noted under
Recommendation No. 4, USAID/Iraq believes that the most appropriate way to address
the RIG’s concerns would be to set forth a recommendation that USAID/Iraq audit the
CSP’s partner’s written quality control procedures to ensure that they meet the OMB
standards. In addition, we are aware that the Defense Contract Audit Agency is
conducting an audit of CSP that includes a review of the accounting system of the CSP
partner in both the United States and Iraq. The results of these reviews will inform


                                                                                         42
                                                                             APPENDIX II 



USAID/Iraq on the appropriate course of action. USAID/Iraq will provide the RIG with a
copy of the implementing partner’s written quality control procedures by June 30, 2008.
USAID/Iraq requests Recommendation No. 7 be considered resolved (i.e. management
decision reached) upon issuance of the report.

Recommendation No. 8: We recommend that USAID/Iraq’s Focused Stabilization
Program Office work with the Community Stabilization Program implementing partner to
reconcile the employment data reported in its monitoring and evaluation database with
the employment data reported in its quarterly progress report.

USAID/Iraq agrees with this recommendation. USAID and its partner will be revising the
CSP Monitoring and Evaluation Plan and will include the reconciliation of employment
data as part of that process. This will help ensure that future CSP quarterly progress
reports contain accurate information. USAID/Iraq will provide the RIG with a copy of the
revised CSP Monitoring and Evaluation Plan by June 30, 2008. USAID/Iraq requests
that Recommendation No. 8 be considered resolved (i.e. management decision
reached) upon issuance of the report.

Recommendation No. 9: We recommend that USAID/Iraq determine the allowability and
collect as appropriate the $39,821 in questioned ineligible costs billed by CSP’s
implementing partner under Cooperative Agreement No. 267-A-00-06-00503-00, for the
specific projects included in the finding.

USAID/Iraq agrees with this recommendation. USAID/Iraq will make a decision on the
allowability of the questioned costs after receipt of back-up documentation from the RIG
and appropriate follow-up with the CSP partner. The target date for making the
determination on the allowability of these questioned costs is June 30, 2008.

Finding: Results of Local Government Effectiveness Surveys Could Be Improved

Recommendation No. 10: We recommend that USAID/Iraq’s Focused Stabilization
Program Office work with the Community Stabilization Program implementing partner to
recalculate all prior baseline and follow-up surveys to accurately reflect the changes in
survey methodology noted above.

Recommendation No. 11: We recommend that USAID/Iraq’s Focused Stabilization
Program Office work with the Community Stabilization Program implementing partner to
amend the monitoring and evaluation plan to incorporate the changes in survey
methodology noted above.

USAID/Iraq acknowledges a minor weakness in CSP survey methodology, but does not
agree with these two recommendations. As correctly stated in the audit report, the data
collected is used “to report progress towards intended results.” (emphasis added) The
label assigned to a value of 3 on a 1 to 5 scale, and the overall survey results, are only
meaningful to analyze trends in citizen satisfaction over time, which is why CSP
conducts baseline and follow-up surveys at six month intervals.

The audit report should state explicitly that the 1 to 5 scale is used in only one of four
interrelated questions on the survey and that the other three are clearly labeled.
Collectively, these are designed to provide a relatively high degree of validity on what is
an inherently subjective matter.


                                                                                        43
                                                                              APPENDIX II 




It is unclear from the audit report how the RIG concluded the survey methodology is
unreliable. The assertion is made, but followed by a discussion of the differences
between USAID/Iraq and its partner on this matter, which does not constitute evidence
of unreliability. Furthermore, as stated on page 16, it was precisely “due to concerns
about the consistency of survey results if labels were added….” (i.e., reliability) that led
to the decision not to change the survey. This is one reason the recommendations are
impractical. It is not simply a matter of deciding after the fact that a response of 3 means
“unsatisfied” and then recalculating the results. USAID/Iraq’s partner would have to
conduct new surveys, which is cost prohibitive and impossible for baseline information.

Finding: External Monitoring Reports Could Be Better Utilized

Recommendation No. 12: We recommend that USAID/Iraq’s Focused Stabilization
Program Office establish policies and procedures to formally document and track the
status of recommendations made by the monitoring and evaluation contractor.

USAID/Iraq agrees with this recommendation. In October 2007, FSPO established
policies and procedures to follow up on external monitoring reports. The RIG was
unaware of this because it did not interview the relevant USAID/Iraq staff – the new
FSPO Director and CSP Cognizant Technical Officer (at post since September 2007).
The system includes soliciting comments from the CSP partner and from the relevant
USAID PRT Rep(s). It also requires an action plan and timetable for follow-up, which is
vetted by FSPO and formally incorporated into the monitoring report as an annex. In
light of these measures, USAID/Iraq requests that Recommendation No. 12 be
considered resolved (i.e. management decision reached) and closed upon issuance of
the report.

Finding: Performance Indicators Should More Closely Link Outputs to Results

CSP’s performance management plan was the subject of an extraordinary level of
flexibility, creativity and negotiation in what is a time-constrained, results-oriented and
explosively violent environment. The assertion on page 19 that it was approved
“prematurely” is speculative and does not reflect the very collaborative relationship that
FSPO has established with its CSP implementing partner. As USAID’s role has
transitioned from program implementer to program manager, such relationships have
become one of the keys to the success of its programs and to the achievement of U.S.
foreign policy objectives.

The discussion in the third paragraph of page 19 on CSP business development
activities mentions two lower-level performance indicators: the value of financial support
to businesses and the number of businesses receiving assistance. The audit report
correctly states that “while these indicators show the extent of CSP activity, they do not
demonstrate the effects of those activities on decreasing unemployment.” However, the
main indicator that USAID and its partner use to gauge CSP’s effect on unemployment is
the total number of jobs created through CSP business development activities.
USAID/Iraq believes that the use of this indicator – the number of jobs created – is in
fact an effective means for measuring the program’s impact on reducing unemployment.

Recommendation No. 13: We recommend that USAID/Iraq’s Focused Stabilization
Program Office reassess the performance indicators in its monitoring and evaluation


                                                                                         44
                                                                             APPENDIX II 



plan to more closely link outputs to results, and to document the reasons for its
determination.

USAID/Iraq agrees that good performance indicators are a vital tool for program
management and gauging the impact of USAID’s efforts under most circumstances.
However, the audit report fails to take into account the emphasis placed on CSP outputs
by the USG inter-agency leadership and the practical limitations of measuring higher-
level indicators that are specific to CSP and the Iraqi environment.

The audit report mentions the “emphasis placed at the beginning of the troop surge on
rapid job creation by CSP projects.” (p. 19) However, a fuller explanation is warranted
given the effect this has had on CSP. In early 2007, the U.S. National Security Council
tasked USAID/Iraq with creating 40,000 “person days of employment” by June 30, 2007,
primarily through CSP. After extensive discussions on how that objective would be
defined and reported, USAID/Iraq and its implementing partners made extraordinary
efforts to achieve this output target, which it exceeded by 20%. Such taskings are an
inherent aspect of operating in Iraq, and it is not in USAID’s purview to ignore or de-
emphasize them. The focus for CSP has been and remains appropriately focused on
outputs which the inter-agency leadership deems to be appropriate in the context of
CSP’s support to the overall counterinsurgency effort in Iraq.

With regard to practical limitations, the audit report references ADS guidance that good
performance indicators are “direct” and “useful for decision-making.” But ADS 203.3.4.2
also states that good indicators are “practical,” meaning “obtained at reasonable cost
and in a timely fashion.” In Iraq, this is a considerable challenge. For example, FSPO
would like to ascertain the impact of youth programs on mitigating conflict and, ideally,
would do so through empirical means such as surveys. Unfortunately, the tenuous
security environment, cultural constraints and the high cost of conducting survey work in
Iraq make this suggestion impractical. Moreover, the anecdotal evidence that CSP
youth programs are mitigating conflict is strong enough that FSPO does not believe that
undertaking such surveys would be an effective use of limited funds.

The ADS also describes good indicators as “attributable to USAID efforts” and states
that “if more than one agency or government is involved in achieving a result, Operating
Units should describe exactly what role each played in achieving the result.” This raises
a unique challenge for CSP, as it is simply not possible to determine whether the
stabilization of a community was caused by CSP’s efforts, military operations, political
engagement and/or other factors. The ability to do so would require a degree of civil-
military integration that is often stymied by the different terminologies, time frames,
objectives, management styles and information management systems of the various
USG agencies involved. This has been one of the important lessons learned in
executing full-spectrum, “3D” operations in Iraq and Afghanistan, but it is well beyond the
scope of CSP to solve the problem.

FSPO has begun discussions with its CSP partner and USAID/Iraq’s M&E contractor on
ways to measure and analyze the higher-level results of the program. This might, for
example, include small focus groups with youth to gauge attitudes and perceptions, or a
one-time survey of business development grant recipients well after CSP’s involvement
has ended. However, these would be discrete activities designed to complement CSP’s
performance management plan, not the reassessment called for in the audit report.



                                                                                        45
                                                                            APPENDIX II 



USAID/Iraq requests that Recommendation No. 13 be considered resolved (i.e.
management decision reached) and closed upon issuance of the report.

Audit Question: How has USAID/Iraq designed and implemented its Community
Stabilization Program to help ensure that Iraqis continue to benefit from its
activities after USAID involvement has ended?

USAID/Iraq thanks the RIG for the comments made in this section of the audit report.

Other Matters: Branding Policy Should Be Consistently Followed

Recommendation No. 14: We recommend that USAID/Iraq’s Focused Stabilization
Program Office request the Community Stabilization Program implementing partner to
instruct its program office directors to more consistently follow the established branding
policy.

USAID/Iraq agrees with this recommendation. In September, FSPO and its CSP partner
agreed that reasonable efforts should be made to ensure that activities are attributed to
the appropriate Government of Iraq entity.

USAID/Iraq requests that Recommendation No. 14 be considered resolved (i.e.
management decision reached) upon issuance of the report.




                                                                                       46
                                                                                      APPENDIX III



SURVEY RESULTS
Perceptions of Iraqi Citizens on the Effectiveness of Local
Governments in Providing Services14
  CSP Area              Baseline             Follow-up           Calculated
(Governorate)           Surveys               Surveys          Improvement /
                                                                  (Decline)
Baghdad:
  District # 1           12.27%                39.77%               27.50%
  District # 2           29.56%                 1.69%              (27.87%)
  District # 3           37.45%                47.13%                9.68%
  District # 4           37.55%                17.29%              (20.26%)
  District # 5            2.89%                25.17%               22.28%
  District # 6           40.88%                51.10%               10.22%
  District # 7           36.08%                43.10%                7.02%
  District # 8           14.29%                42.27%               27.98%
Al Tamim                 27.55%                17.10%              (10.45%)
Ninewa:
  City #1                11.71%                30.80%               19.09%
  City #2                19.30%                34.15%               14.85%
Al Anbar                 31.78%                24.25%               (7.53%)

Source: Unaudited CSP implementing partner data




14
   The percentages in this table reflect an average of 1) respondents who indicated that they were
satisfied or better with the provision of local municipal services (i.e., “satisfaction level”), and 2)
respondents who indicated that these services had improved over the past twelve months and will
likely do so in the coming year. We recomputed the satisfaction level to only include respondents
who rated their satisfaction as 4 or better, in accordance with our discussion on pages 15-16.


                                                                                                    47
                                                                                  APPENDIX IV



EMPLOYMENT RESULTS
Number of person-months generated for short-term employment (as of September
30, 2007):

                        CSP Reported             Substantiated         Percent
                          Results                  Results             Substantiated
 Baghdad                     192,744                     77,140               40.0%
 Other
 Locations15                     66,685                     N/A                     N/A
 Total                          259,429                     N/A                     N/A

Testing Statistics:

                                                     Number of                            Projects with
                    Number of       Percent of         Pay              Percent of         Perfect or
                     Projects        Projects        Periods16         Pay Periods        Near-Perfect
                      Tested          Tested          Tested             Tested           Attendance17
 Adequately
 Substantiated           33            50.0%              242             65.3%               18
 Inadequately
 Substantiated           17            25.7%              59              15.9%               13
 No
 Substantiation
 Provided                10            15.1%              69              18.6%
 Not
 Applicable18             6            9.1%                      -         0.0%
 Total                   66           100.0%              370             100.0%              31




15
   Due to security restrictions, the audit team was unable to perform testing for locations other
than Baghdad. Other locations are shown as substantiated for illustrative purposes and cannot
be interpreted as meaning they are, in fact, substantiated. Substantiated results for Baghdad are
the projected results based on our sample. Our sample consisted of 144,626 person-months, of
which 629 were attributable to six projects outside of our scope, as explained in the footnote
below. Of the remaining 143,997 person-months, we determined 57,631 person-months to be
adequately substantiated.
16
   The voucher support for each pay period contained the timesheets the audit team used to
determine the adequacy of the CSP employment figures.
17
   The audit team noted during testing that 31 of the projects recorded perfect or near perfect
attendance from those employed under the projects. It would seem unreasonable for such high
attendance to regularly occur in such a volatile environment (example: 800 employees showing
up with not a single absence for 3 months straight) – especially considering the dubious integrity
of the timesheets as established earlier in the report.
18
   Six projects were found to be nonapplicable during testing either because they had not begun
by September 30, 2007 or were contracts for supplies where no employment was generated.


                                                                                           48 

U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
